<html>
<title> - CIVIC VOLUNTEERS, YOUTH SERVICE ORGANIZATIONS, AND THE WAR ON DRUGS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  CIVIC VOLUNTEERS, YOUTH SERVICE ORGANIZATIONS, AND THE WAR ON DRUGS
=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION
                               __________

                           FEBRUARY 26, 1997
                               __________

                            Serial No. 105-9
                               __________

Printed for the use of the Committee on Government Reform and Oversight



                     U.S. GOVERNMENT PRINTING OFFICE
40-342                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN H. SCHIFF, New Mexico         EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              TIM HOLDEN, Pennsylvania
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
JOHN SHADEGG, Arizona                DENNIS KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           ROD R. BLAGOJEVICH, Illinois
MARSHALL ``MARK'' SANFORD, South     DANNY K. DAVIS, Illinois
    Carolina                         JOHN F. TIERNEY, Massachusetts
JOHN E. SUNUNU, New Hampshire        JIM TURNER, Texas
PETE SESSIONS, Texas                 THOMAS H. ALLEN, Maine
MIKE PAPPAS, New Jersey                          ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
------ ------
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK SOUDER, Indiana                 THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            BOB WISE, West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN McHUGH, New York                ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVE LaTOURETTE, Ohio               JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Robert Charles, Staff Director
              Sean Littlefield, Professional Staff Member
                  Chris Marston, Legislative Assistant
                          Ianthe Saylor, Clerk
            Elizabeth Mundinger, Minority Professional Staff









                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 26, 1997................................     1
Statement of:
    Creighton, John W., Jr., president, Boy Scouts of America; 
      Faye Dissinger, international president, General Federation 
      of Women's Clubs; Frank A. Sarnecki, director general, 
      Loyal Order of Moose; and Mike Marshall, president, U.S. 
      Junior Chamber of Commerce.................................     4
    Herndobler, Dick, Benevolent and Protective Order of Elks; 
      Gordon Thorson, national youth program director, Veterans 
      of Foreign Wars; Howard Patterson, first vice-president, 
      Lions Club International; William Pease, assistant director 
      for children and teens program, American Legion Child 
      Welfare Foundation; Don Baugher, president, accompanied by 
      Larry Chisholm, national executive director, Masonic 
      National Foundation for Children; and Dennis Windscheffel, 
      drug prevention program consultant.........................    41
Letters, statements, etc., submitted for the record by:
    Chisholm, Larry, national executive director, Masonic 
      National Foundation for Children, prepared statement of....    67
    Dissinger, Faye, international president, General Federation 
      of Women's Clubs, prepared statement of....................     8
    Herndobler, Dick, Benevolent and Protective Order of Elks, 
      prepared statement of......................................    44
    Marshall, Mike, president, U.S. Junior Chamber of Commerce, 
      prepared statement of......................................    28
    Patterson, Howard, first vice-president, Lions Club 
      International, prepared statement of.......................    54
    Pease, William, assistant director for children and teens 
      program, American Legion Child Welfare Foundation, prepared 
      statement of...............................................    59
    Sarnecki, Frank A., director general, Loyal Order of Moose, 
      prepared statement of......................................    18
    Thorson, Gordon, national youth program director, Veterans of 
      Foreign Wars, prepared statement of........................    50
    Windscheffel, Dennis, drug prevention program consultant, 
      prepared statement of......................................    77







  CIVIC VOLUNTEERS, YOUTH SERVICE ORGANIZATIONS, AND THE WAR ON DRUGS

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                   Affairs, and Criminal Justice, ,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Shadegg, Barrett, and 
Cummings.
    Staff present: Robert Charles, staff director and chief 
counsel; Sean Littlefield, professional staff member; Chris 
Marston, legislative assistant; Ianthe Saylor, clerk; Elizabeth 
Mundinger, minority professional staff; and Jean Gosa, minority 
administrative clerk.
    Mr. Hastert. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will come to order.
    I take great pleasure in calling this hearing this morning. 
As chairman of an oversight subcommittee, it seems that I 
rarely have a chance to bring good news into the public eye. 
Today, we have a chance to do that.
    While the problems of youth drug use are undoubtedly among 
the worst our Nation has faced, and faces, of all the problems 
we have, we have before us today representatives of volunteer 
organizations that are doing their level best to face that 
problem.
    It is with profound gratitude that I welcome today's two 
panels of witnesses. The service they do for our Nation should 
not go unappreciated. Even before we begin, let me go on the 
record: Thank you for all you do.
    Before we hear from our witnesses in more detail about 
their programs to fight drug abuse, let me set the stage by 
describing the problem we face with youth drug abuse. Illicit 
drug use among 8th and 10th graders has doubled in the last 5 
to 6 years. Five percent of high school seniors smoke marijuana 
on a daily basis, and three out of four have now used 
marijuana. Our children are using LSD and other hallucinogens, 
cocaine, heroin, and metham-phetamines, at increasing levels. 
Parents have stopped talking to their children about the 
dangers of drug abuse. Only 3 of 10 children say their parents 
have talked to them about drugs at all.
    Faced with a problem of this magnitude, I feel it is my 
duty as a Member of Congress to take every opportunity to 
encourage effective drug prevention programs like those 
represented by our witnesses here today.
    You people are leaders. You deeply care about America's 
children. You have helped, and are helping, to turn back the 
tide of illegal drug use, and you have done so as volunteers 
without extensive Federal aid. It is on the efforts like yours 
that this Nation's future depends.
    We know that one of the ways to prevent drug abuse is to 
give children a sense of self-value, self-worth. Society cannot 
do that in an institutional way. We cannot pass a law and make 
that happen. We cannot make a decree and make that happen. It 
is just hard work. It is in the trenches day after day. It is 
folks like you putting together programs to focus on kids, to 
give them the values and self-worth and the tools that they 
need to go on with life.
    We cannot dictate that our schools do it or that our 
churches do it or our communities do it; we can only hope that 
folks like you do it, and you are. I want to welcome you.
    Before proceeding with our first witness, I am pleased to 
turn to my colleague, the subcommittee's ranking minority 
member, my friend from Wisconsin, Tom Barrett, for any opening 
remarks he may have.
    Mr. Barrett. Thank you, Mr. Chairman. I want to thank you 
for holding this important hearing, and I want to thank our 
witnesses for sharing your time and your expertise with us 
today.
    We all recognize the importance of involving the community, 
including civic and service groups, in the War on Drugs. 
Community groups can help fix this problem. The Federal 
Government already recognizes the importance of civic groups by 
providing Federal funding to community coalitions to 
demonstrate how they are fighting drug abuse.
    However, unfortunately, 2 years ago, in the frenzy to cut 
social programs, drug abuse prevention programs, including 
demonstration projects, were cut 62 percent. Fortunately, the 
good news is that Members on both sides of the aisle realized 
that this was a mistake, and much of the prevention funding has 
been restored.
    As a result, we now have 122 community coalition 
demonstration grants. Almost every State has one, including my 
State of Wisconsin, and Federal seed money has helped build a 
strong community network, which now includes over 4,000 
community partnership programs. They are a strong weapon 
against drug abuse, and they deserve our support.
    When I talk to people in my community about programs, 
community programs, and obviously the one that gets the most 
criticism are the basketball programs, I explain to people that 
I would much rather have kids shooting basketballs than 
shooting heroin. I would much rather have them shooting 
basketballs than shooting guns; and I think, to the extent that 
we can get young people involved in positive community outlets 
across the spectrum, I think we all gain from that.
    It is my understanding that the majority is working with 
others to draft a bill that will provide community coalitions 
with a new and more permanent source of Federal funding, and I 
applaud that effort. I look forward to working with the 
chairman to make sure that this is a truly bipartisan effort, 
and I hope that we can find a funding source for this new 
initiative without damaging existing effective drug programs 
which have been successful--for example, the Substance Abuse 
and Mental Health Services Grant Program, which provided 
funding used to treat 340,000 people with serious substance 
abuse programs in 1995, or the National Institute of Drug 
Abuse, which provides 85 percent of drug abuse research.
    I do not want to see these important initiatives hurt. I do 
not think we should be robbing Peter to pay Paul.
    Again, I want to thank you for taking the time to testify. 
I think that in upcoming hearings we may want to hear from some 
other groups as well, groups like the Congress of National 
Black Churches; community groups like the Hispanic-Black 
Community Prevention Network, and others who are also deeply 
entrenched in the War on Drugs and have a great deal of insight 
to share with us.
    But today, I am very excited to hear from the people who 
are before us and look forward to your testimony.
    Mr. Hastert. Mr. Souder, do you have an opening statement?
    Mr. Souder. I have a statement, but I wanted to 
congratulate all of the people here today for your commitment 
at the grassroots level, because it is good to see that not 
everybody says that something has to start in Washington and 
then unless Washington moves, nothing is going to happen. 
Everybody back home, my family in Indiana and everybody around 
the country, realizes that we are drowning in drugs. Our kids 
are at risk, our families are at risk, and unless every parent 
gets involved, every school gets involved, all churches in the 
communities, we are never going to lick this problem.
    Part of the reason I am here today is I want to hear what 
your groups are doing, and I want to congratulate you. It is 
really good to see. We need to do what we can out of 
Washington, but it is good to see the response coming from back 
home and not always coming from here in the Capitol Building.
    Thank you very much.
    Mr. Hastert. Thank you, Mr. Souder. I would like to welcome 
our first panel.
    John W. Creighton is president of the Boy Scouts of 
America. Faye Dissinger is the president of the General 
Federation of Women's Clubs. Frank Sarnecki is the director 
general of the Loyal Order of the Moose, and I have to say, Mr. 
Sarnecki, I certainly welcome you; and Mooseheart is at the 
very heart of my district, and I have a great appreciation for 
it. Mike Marshall is the president of the U.S. Junior Chamber 
of Commerce.
    We welcome all of you, and we are pleased to have you here. 
If you would please stand and raise your hands, the committee's 
rules require me to swear you in.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses 
responded in the affirmative.
    Thank you, and please proceed with your opening statements. 
We will start with you, Mr. Creighton.

STATEMENTS OF JOHN W. CREIGHTON, JR., PRESIDENT, BOY SCOUTS OF 
   AMERICA; FAYE DISSINGER, INTERNATIONAL PRESIDENT, GENERAL 
   FEDERATION OF WOMEN'S CLUBS; FRANK A. SARNECKI, DIRECTOR 
 GENERAL, LOYAL ORDER OF MOOSE; AND MIKE MARSHALL, PRESIDENT, 
                U.S. JUNIOR CHAMBER OF COMMERCE

    Mr. Creighton. Thank you, Mr. Chairman, for inviting us 
here, and good morning. My name is Jack Creighton, and I am the 
president and chief executive officer of the Weyerhauser Co., 
but I am here this morning in my role as volunteer president of 
America's premiere youth-serving organization, the Boy Scouts 
of America.
    It is a pleasure to be with you to discuss the programs of 
the scouting organization and share with you the efforts the 
Boys Scouts of America have undertaken to help combat drug use 
in our society.
    Today's scouting offers five programs designed to serve the 
needs of boys and girls of various age groups. Please allow me 
a moment to describe briefly these five programs.
    Tiger Cubs are boys in the first grade who learn new skills 
with an adult family member. They work together on projects and 
attend a monthly event with other Tiger Cubs.
    Cub Scouts, for boys in the second through fifth grade, 
work with their families and meet for weekly, age-specific 
activities in small groups.
    Boy Scouts comprise our oldest and most traditional 
program. Camping, outdoor activities, and a challenging 
advancement program help develop self-reliance and leadership 
skills for boys in the 6th through 12th grades.
    Exploring is for young men and women in the ninth grade 
through age 20. Explorers learn to make career decisions 
through a hands-on sampling of vocational and hobby options.
    Finally, Learning for Life is a wholly owned subsidiary of 
the Boy Scouts of America. Its programs are designed to support 
classroom teaching and help prepare students to handle the 
complexities of contemporary society.
    These five programs impacted the lives of 4,400,000 of our 
Nation's youth last year. As an aside, our increase in 
membership last year was the largest in 26 years.
    Scouting combines fun with educational activities and 
lifelong values to a broad range of young people. We help 
parents strengthen character, develop good citizenship, and 
enhance both mental and physical fitness in their sons and 
daughters.
    The Boy Scouts of America's efforts to combat drug use 
began with a call from the Reagan White House in 1987. 
President Reagan personally challenged the scouting 
organization to join the fight against drug abuse. Following 
that meeting, the Boy Scouts of America aggressively addressed 
what it considered to be five unacceptables in our society: 
hunger, child abuse, illiteracy, youth unemployment, and drug 
abuse.
    Later that same year, scouting introduced its new anti-drug 
program titled ``Drugs: A Deadly Game.'' Included in this anti-
drug package are a videotape; a poster showing how drugs, 
alcohol, and smoking damage the human body; and a teaching 
guide for use by parents and instructors. These materials are 
also provided in Spanish and contain minimum scouting 
identification so that civic, educational, and religious groups 
will utilize the materials as well.
    The third edition of ``Drugs: A Deadly Game,'' launched in 
1994, speaks to today's issues, such as the escalating crack 
epidemic, increased use of inhalants, and the popularization of 
steroids. More than 16 million copies of the ``Drugs: A Deadly 
Game'' booklet have been distributed since 1987, making it one 
of the largest national anti-drug efforts ever undertaken.
    In 1989, scouting produced a publication titled ``How To 
Protect Your Child from Child Abuse and Drug Abuse: A Parent's 
Guide,'' plus a videotape and instructor's guide for training 
adult volunteer leaders. So that every parent could easily 
obtain a copy of the parent's guide, it was eventually inserted 
into the inside cover of every handbook used by young people in 
scouting. Today, these important messages about drug abuse are 
included as a regular part of our handbooks for youth members.
    In the fall of 1994, we were asked to participate with the 
Office of National Drug Control Policy in the development of a 
National Drug Control Strategy. Working with this group, we 
continue to be advocating focusing on a comprehensive education 
and prevention program aimed at youth which warns about the 
dangers of drug abuse.
    At our 1996 National Annual Meeting, we introduced a new 
Crime Prevention Program. We sincerely appreciate the 
opportunity to work with the National Crime Prevention Council, 
the International Association of Police Chiefs, and the 
National Sheriff's Association in developing this new 
initiative. We also enjoyed the support of U.S. Attorney 
General Janet Reno as we launched our program this past October 
during National Crime Prevention Month.
    Designed for use by Scouts and non-Scouts alike, our Crime 
Prevention Program continues to promote the ``Drugs: A Deadly 
Game'' material.
    In May 1995, Lou Harris and Associates released a study 
titled ``The Values of Men and Boys in America.'' This study 
revealed many interesting findings related to values. Among 
other things, it showed that a scouting experience has a 
positive impact on values. It also revealed that 51 percent of 
the men in America were once Scouts--51 percent.
    I mention this as a way to impress upon you that the Boy 
Scouts of America can, and does, make an impact on youth and 
adult members that we serve today. The total number of youth 
and adult members of the Boy Scouts is 5.6 million.
    Think for a moment about what goes through your mind when 
someone you meet says that you were a scout, they were a scout. 
I bet you would take note, I bet you would immediately know 
something about this person's values, I bet you know about his 
drive to succeed, and I bet you know something about his 
character.
    You know all of this without him saying anything else about 
himself, except that he was a Scout. Everything I have shared 
with you today requires no Government funding. The Boy Scouts 
of America is proud to pledge the resources required to support 
its tradition of teaching values to young people and to 
continue our efforts to combat the use of drugs by American 
youth. Thank you very much.
    Mr. Hastert. Thank you, Mr. Creighton. Now, I welcome Ms. 
Dissinger.
    Ms. Dissinger. Mr. Chairman, on behalf of the General 
Federation of Women's Clubs (GFWC), I want to thank you and the 
members of the Subcommittee on National Security, International 
Affairs, and Criminal Justice for holding this hearing and 
allowing me the opportunity to submit testimony describing 
GFWC's efforts to help American youth stay drug free.
    As international president of the General Federation of 
Women's Clubs, one of the world's largest and oldest service 
organizations, I speak for more than 260,000 members throughout 
the United States who are generalists in many areas and expert 
at identifying issues important to families and at working to 
further volunteer service.
    For more than 100 years, GFWC has built an outstanding 
record of accomplishments. Our members work to address the 
diverse needs of their communities by networking with 
specialized associations, as well as with local public agencies 
and private groups, in order to maximize the effectiveness of 
our community service work. During the previous 2-year period, 
1994 to 1996, our 6,500 clubs reported more than 26 million 
volunteer hours and $55 million donated to over 400,000 
projects nationwide.
    GFWC began to concentrate on drug abuse programs in the 
mid-1960's, with the first GFWC resolution on substance abuse 
adopted in 1968. The Federation launched its alcohol and drug 
abuse education and awareness program for women and children in 
1974. Ever since then, clubs have had programs to support our 
two GFWC resolutions, both updated in 1995, that recommend 
educating their communities, promoting activism in the 
prevention of substance abuse among the Nation's youth and 
supporting efforts of Federal, State, and local governments.
    The stated purpose of GFWC's program is to educate members 
about substance abuse issues and prevention methods for young 
adults and to encourage members to take an active role in 
prevention efforts in their communities. GFWC's program is 
supported by the Federal Bureau of Investigation, whose agents 
work closely with the clubs to educate the community through 
the Drug Demand Reduction Program.
    In addition, GFWC members work frequently with their 
successful programs with such organizations as Mothers Against 
Drunk Driving (MADD), Students Against Drunk Driving (SADD), 
the Parent-Teachers Association (PTA), the Young Women's 
Christian Association (YWCA), as well as local schools and 
shelters and both Girl and Boy Scouts.
    During 1996, GFWC clubs, working in the area of substance 
abuse prevention, reported 200,000 volunteer hours and $890,000 
donated to over 2 million recipients. While the Federation is 
proud of its cooperative efforts with local law enforcement 
agencies, schools, and other organizations, we believe that 
Federal, State, and local governments also must work to make 
current and new programs effective in helping to eradicate the 
drug problem.
    I would like to share with members of the subcommittee some 
descriptions of GFWC club programs that illustrate our belief 
that a consistent, educational, anti-drug message can and does 
impact the Nation's youth drug problem. For example, clubs 
nationwide support Drug Abuse Resistance Education, or D.A.R.E. 
One Ohio club raised money for a female police officer, who as 
a single mother, would otherwise have not been able to become a 
D.A.R.E. officer. In the State of Georgia, a GFWC club, working 
with a Sertoma Club, brought 1,500 fourth-grade students to a 
drug-free pep rally. Another club performed a puppet show about 
substance abuse at a shelter for abused women and children. 
California clubs gave $600 to support a program for recovering 
abusers that provides work and job training. A program known as 
Friday Night Live, organized by club members and parents, 
working with police and students, plans alternative parties for 
young people.
    Clubwomen in over 30 States donated money and participated 
in Red Ribbon Week, a national family partnership program, by 
distributing ribbons signifying ``say no'' to drugs.
    It is my sincere hope that the information that I have 
provided will assist members of the subcommittee as they work 
to formulate a response to America's drug problem.
    [The prepared statement of Ms. Dissinger follows:]
    [GRAPHIC] [TIFF OMITTED] T0342.001
    
    [GRAPHIC] [TIFF OMITTED] T0342.002
    
    [GRAPHIC] [TIFF OMITTED] T0342.003
    
    [GRAPHIC] [TIFF OMITTED] T0342.004
    
    [GRAPHIC] [TIFF OMITTED] T0342.005
    
    [GRAPHIC] [TIFF OMITTED] T0342.006
    
    [GRAPHIC] [TIFF OMITTED] T0342.007
    
    Mr. Hastert. Thank you, Ms. Dissinger. Now, I'd like to 
have the pleasure of welcoming Mr. Sarnecki, of the Moose.
    Mr. Sarnecki. Thank you, Mr. Chairman, members of the 
committee. On behalf of Moose International, I thank you for 
the opportunity to present testimony here this morning 
regarding drug abuse and what we are attempting to do as a 
preventive measure.
    Moose International is a nonprofit, fraternal organization 
founded in 1888 for the purpose of inspiring lofty sentiments 
relative to humanity's welfare. Currently, there are over 2,100 
lodges representing nearly 1,736,000 men and women of the Loyal 
Order of Moose pursuing the dream and doing a great job of it. 
The fraternity's first philanthropic endeavor consisted of 
building a child care facility 35 miles west of Chicago called 
Mooseheart. There we are caring for children who need the 
benefit of a residential and educational facility such as 
Mooseheart.
    Our second philanthropic endeavor is located outside of 
Jacksonville, FL in the Orange Park community called 
Moosehaven. This is a retirement community for our senior 
members and their wives. Those who reside at Moosehaven are 
there because of a need: a helping hand in the later years of 
their life.
    Believing that only the home, the church, and the school 
have the eminent right to reside in communities, this 
fraternity put together their third philanthropic endeavor, 
called community service. The community service program of the 
Moose centers around helping not only the youth, but also 
senior citizens.
    In addition to volunteering time and effort at various 
Veterans Administration Medical Centers, volunteer hours are 
also expended locally through walk-a-thons, Adopt a Highway, 
Meals on Wheels, telethons, local blood drives, food 
collections, Toys for Tots, and providing holiday meals for 
those less fortunate individuals.
    The flagship of the Moose International Community Service 
Program is the Moose Youth Awareness Program, a program that 
was developed in 1986 from an invitation extended to the 
fraternity to visit with President Ronald Reagan and First Lady 
Nancy in an effort to encourage organizations to adopt the 
``Just Say No to Drugs'' program. That program evolved through 
the years and is now known as Moose International Youth 
Awareness Program.
    Can teenagers persuade younger children to make the right 
choices in life? ``Yes,'' say the teens and adults who work 
together in our Youth Awareness Program. For 10 years, we have 
organized high-school-age leaders into a highly effective 
speakers bureau to persuade preschool- and elementary-age 
youngsters against drug use. We have now expanded our program 
to bring awareness to 4- to 9-year-olds on other subjects, such 
as child abuse, gangs, and other elements that have an adverse 
effect on the youth of today.
    More than 1,200 eager teens gather at Moose Association 
Student Congresses around the United States and Canada 
annually. They come to exchange good ideas, to help themselves 
and others to deal with the adverse elements in their own 
communities. Many of the students revealed experiences in their 
own lives which made them want to prevent further tragedies. 
Many are already leaders in their schools or community youth 
awareness programs, and some became leaders at the Youth 
Congresses.
    During the course of the Association Student Congress, the 
students focus on creating Moose KidsTalk, which are short 
presentations that they will personally give to groups of 4- to 
9-year-olds in their home towns. Adult experts were brought in 
to inspire where needed, but best of all, the students 
initiated their own ideas for Moose KidsTalk. They thought up 
ways to empower children to choose health and resist danger and 
how to put them into practice.
    Several of our students used costumes to convey their 
messages to 4- to 9-year-old age groups and encouraged them to 
make healthy choices. Others used props or pictures of sports 
heroes to get the attention of their elementary-age children. 
Many presented skits, some teaming up with young audience 
members to play parts.
    Most bring activity aids, such as coloring books, flash 
cards, or, yes, even a mouse trap. Their sponsoring Moose 
lodges and Women of the Moose chapters are additionally 
challenged to help make arrangements for their KidsTalk. The 
1996 KidsTalk audience numbered more than 32,000 youngsters. 
Following the Association Student Congresses, they are 
challenged to become speakers' bureaus, finding opportunities 
to speak with groups of children, such as Cub Scouts, Brownies, 
Bluebirds, elementary school or Sunday school classes, to name 
just a few.
    Each student is asked to complete a minimum of three 
KidsTalks in their own home town or community. About 65 of the 
teens attending the Association Student Congresses are then 
selected by their peers to attend, along with a guest team from 
Great Britain, the International Student Congress.
    The 1997 International Student Congress will be held at the 
Washington Dulles Hyatt Hotel and includes a full day of 
touring Washington, DC, on Friday, May 2, 1997. Those 65 
students will start with breakfast at the U.S. Capitol and 
complete the day by boarding the Spirit of Washington cruise 
ship that evening for a dinner cruise on the Potomac. The 
following 2 days are spent exchanging various methods of 
presentations to our target 4- to 9-year-old-age-group 
youngsters.
    At the end of the second day, those students vote to 
determine the best of the best. Two students are awarded $1,000 
scholarships, and the top student is awarded a $5,000 
scholarship and a trip to the international convention, which 
will be held in Orlando this year.
    A bright and continuing future is planned for the Youth 
Awareness Program by making KidsTalk presentations to small 
groups of youngsters. Soon this will inspire children in their 
communities to join in making healthy choices and avoid adverse 
elements. In fact, the voices of those sophomores, juniors, and 
seniors who attended the Association International Student 
Congress during the last 7 years have reached an audience of 
over 200,000 4- to 9-year-olds.
    The men and women of the Loyal Order of Moose are dedicated 
to caring for youth of our country and in that regard, we will 
sponsor a youth forum at the Second World Congress on Family 
Law and Rights of Children and Youth scheduled in San Francisco 
in June of this year. The Congress is reporting on the grave 
plight of children locally, nationally, and internationally. 
The Loyal Order of Moose is proud to be a sponsor of this 
effort.
    First Lady Hillary Rodham Clinton, true to form, in her 
never-ending quest to provide for the well-being of children, 
is honorary chair of the event. We are pleased to be the only 
fraternal group participating in the Congress.
    The future of our country rests with the little ones of 
today. Without a doubt, members of the Loyal Order of Moose and 
co-workers of the Women of the Moose will continue to provide 
assistance in the goal of helping to make communities a better 
place for our youth to grow.
    [The prepared statement of Mr. Sarnecki follows:]
    [GRAPHIC] [TIFF OMITTED] T0342.008
    
    [GRAPHIC] [TIFF OMITTED] T0342.009
    
    [GRAPHIC] [TIFF OMITTED] T0342.010
    
    [GRAPHIC] [TIFF OMITTED] T0342.011
    
    [GRAPHIC] [TIFF OMITTED] T0342.012
    
    [GRAPHIC] [TIFF OMITTED] T0342.013
    
    [GRAPHIC] [TIFF OMITTED] T0342.014
    
    Mr. Hastert. Thank you, Mr. Sarnecki. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman. I do appreciate the 
privilege to testify before this committee.
    I am the 77th president of the U.S. Junior Chamber of 
Commerce, also known as the Jaycees. We are the largest young 
person's leadership training organization in America. Our 
members are men and women, ages 21 to 39, who believe in our 
creed that states: ``Service to humanity is the best work of 
life.'' We are the boomers and X'ers that do not fit the media 
stereotypes of the ``me generation'' or of the 
``disenfranchised slacker'' mold.
    Jaycees are people who give generously of their scarce free 
time to help improve their communities and the lives of the 
people within them. Because of the 29- to 39-year-old age 
requirements, our members are in their peak child-rearing 
years.
    The Jaycees are keenly aware and anxious about statistical 
data that shows drug use among children and teenagers is 
rising. The Jaycees are positive solution seekers who believe 
it is far better to organize than to agonize. Over the years, 
we have addressed the problem of youth alcohol and substance 
abuse.
    Just a partial history of anti-drug and alcohol abuse youth 
programs include: 1972 to 1977, Operation Threshold, a program 
dedicated to reducing alcohol abuse and promoting alcoholism 
treatment, reached 23 million Americans. The program made use 
of a Federal grant and was highly successful in raising 
awareness about a problem that was not as openly addressed at 
that time.
    In 1977, the Boston Conference on Teenage Alcoholism and 
the Roxbury-Dorchester Jaycees of Massachusetts cosponsored the 
Nation's first conference on teenage alcoholism. The meeting 
was held in Boston. They provided 200 youths a full day of 
workshops, films, and group discussions on the dangers of 
alcohol use.
    In 1984, combatting drug and alcohol abuse was adopted as a 
3-year priority. The U.S. Jaycees encouraged the chapters to 
run projects to curb drug and alcohol abuse. Chapters were 
encouraged to address this issue on a local basis. Hundreds and 
hundreds of chapters took up the fight.
    In 1986, the ``Just Say No'' program, the program started 
by President Reagan and First Lady Nancy, was endorsed by our 
national, State, and chapter organizations. Local chapters, 
like the Princeton Jaycees, purchased and donated materials for 
the local area schools. This effort went on around the Nation.
    In 1990, ``Three Ways To Keep Your Kids off Drugs.'' This 
video offers parents a three-step, common-sense approach to 
effective parenting. Chapters purchased the tape and provided 
them to video stores, schools, and churches. The tape was used 
by thousands of parents, law enforcement officers, teachers, 
and at the FBI National Academy in Quantico, VA.
    In 1991, Jaycee chapters around the country embraced 
Project D.A.R.E. Support for the program varies from community 
to community. Chapters provide manpower, money, and organize 
local events.
    On a local chapter level, in 1986, the Sikeston, MO, 
Jaycees purchased, painted, and donated the local D.A.R.E. 
officers' vehicle. The same year, they purchased communications 
equipment for the local Sikeston Police Department. The 
equipment is used to raid the homes and businesses of suspected 
drug dealers without the risk of detection.
    In 1997, the Virginia Beach, VA community held Crime 
Awareness Day. The Jaycees are working with the State's 
attorney general and other community service organizations to 
put on a day-long event that is aimed at discouraging drug use 
and teen violence.
    In 1997, there was the ``Want to Get Wasted or Want to Get 
Home'' program. This program was developed by the Texas 
Department of Public Safety and is being conducted by the 
Paris, TX, Jaycees. The program is aimed at reducing the 
incidence of drinking and driving among high school juniors and 
seniors. The Paris chapter was alarmed at statistics that 
showed that 183 Texans between the ages of 15 and 20 were 
killed in alcohol-related motor-vehicle deaths. July of that 
year was the worst, with a total of 74 young people killed on 
the roadways of Texas.
    The program includes an 8-minute video of young people 
talking about how alcohol has messed up their lives. It 
includes pages of information entitled personal, social, legal, 
and financial consequences of drinking and driving. The chapter 
supplemented these packets with presentations and by purchasing 
nearly 4,000 shirts to be given away to the students. The 
materials are provided by the Texas Department of Public 
Safety, and the Jaycees raised money and secured a $10,000 
grant from Allstate Insurance to pay for the shirts.
    In 1977, local chapter projects included hosting alcohol-
free, post-prom activities; drug-free teen dances; paying for 
speakers and programs to promote a drug-free message in 
schools; buying and providing anti-drug, promotional material 
for schools. We also support numerous activities that provide 
alternative sources of fun, self-esteem, and positive peer and 
mentor relationships, such as youth soccer, basketball, 
baseball, and football. We support local youth teen centers and 
the Boys' and Girls' Clubs.
    It has been said that all politics are local. The Jaycees 
believe that all problems are local and that, too, all 
solutions are local. As an organization that has 132,000 
members spread throughout every State in the Nation, we are 
uniquely positioned to provide local solutions to the national 
problem of youth and alcohol substance abuse.
    Throughout our 77-year history, we have tackled major 
issues on a community-by-community basis. During our 77-year 
history, we built airports across America to facilitate the 
growth of airmail service. We purchased street lights for our 
cities and towns to improve vehicle safety. When Jerry Lewis 
began his telethon against muscular dystrophy, we raised $20 
million by running local, community-based projects.
    Currently, we are holding town hall meetings on the issue 
of Social Security reform. We are building health care 
facilities across the country for children with HIV and AIDS, 
and for 3 years we have been encouraging retailers to obey the 
law and deny minors access to tobacco products. We are not 
afraid to tackle current issues and problems.
    The Jaycee officers and members get discouraged when the 
Federal Government spends money to develop a national manpower 
network and all the services necessary to support that type of 
national network, when you have existing national organizations 
that for a fraction of the money could deliver the programs and 
services that are deemed necessary. For decades, organizations 
like the Optimists, the Kiwanis, the Rotary, the Lions, the 
Jaycees, and others were the backbone of volunteerism in this 
country.
    During the last 15 years, these organizations have been in 
the process of redesigning their structures to accommodate the 
changing life styles of today's volunteers. The Federal 
Government benefited when these organizations were at their 
peak of activity. They provided programs and services at little 
or no cost to the taxpayer. During this period of civic 
organizational rebirth, I would encourage the Federal 
Government to look for opportunities to work with these 
organizations.
    On behalf of the 132,000 Jaycee members and the 4 million 
members that have passed through our organization, I would like 
to thank this committee and the chairman for the invitation to 
speak on this topic. Bill Clinton said in his inaugural 
address, ``When Americans work together in their homes, their 
churches, their civic groups, and their work places, they can 
meet any challenge.''
    As a representative of the Jaycees and other service clubs, 
please call upon us for assistance. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Marshall follows:]
    [GRAPHIC] [TIFF OMITTED] T0342.015
    
    [GRAPHIC] [TIFF OMITTED] T0342.016
    
    [GRAPHIC] [TIFF OMITTED] T0342.017
    
    [GRAPHIC] [TIFF OMITTED] T0342.018
    
    [GRAPHIC] [TIFF OMITTED] T0342.019
    
    Mr. Hastert. Thank you, Mr. Marshall. We have wonderful 
testimony on behalf of the Jaycees.
    I am going to open up just to questioning, and I would like 
each person to respond as quickly as possible. In your mind, 
what is the most effective tool that you have put out there for 
young people to prevent drug use? I shall start with you, Mr. 
Creighton. Very quickly, of all the things that you have done, 
what stands out the most, in your opinion?
    Mr. Creighton. I think it is incorporating a message on 
drugs with the value-building and character-building aspects of 
scouting. It is not a stand-alone; it is part of the fabric of 
trying to develop the Nation's youth, and I think that is the 
best way that we can impact the youth, including it, 
emphasizing it in our scouting program and to values.
    Mr. Hastert. Ms. Dissinger.
    Ms. Dissinger. I think the most important part that we do 
is public awareness and getting our local-level people to work 
with other Government agencies and other agencies in developing 
programs that work at the local level and then educate youth on 
what is involved in becoming involved with a drug problem.
    Mr. Hastert. Mr. Sarnecki.
    Mr. Sarnecki. I believe that a constant awareness program 
has to be put forth to keep the problems of drug abuse in front 
of our young people today. I believe we have to start that 
awareness program with children from perhaps kindergarten, 
because that is the time we have to sort of bring it to their 
attention so that when they meet with peers in later years, 
they will have an awareness of the dangers of drug abuse.
    Another important issue, I believe, is young people dealing 
with young people rather than people our age trying to tell the 
young people what they should do or should not do. In our 
arrangement, we have the youth who work with the young people, 
and the young people look up to them as role models.
    Mr. Hastert. Thank you. Mr. Marshall.
    Mr. Marshall. I believe that we have been most successful 
with programs that develop positive self-esteem among the kids, 
the younger kids. When we reach them at that age, it tends to 
set their formation for life, with positive messages that it is 
okay not to do drugs; it is a positive thing. The other thing 
that I think has been very effective for us, given our age 
group of 21 to 39, has been effective parenting, making sure 
that parents understand that they can promote positive self-
esteem in their kids and that they need to do that constantly 
to make sure that they do not fall prey to peer pressure, which 
is negative.
    Mr. Hastert. Thank you. This next question might be a 
little bit of a touchy question, but I would like to get your 
perspective on it. What your organizations are doing and what 
is the sense on most of your growth. One of the places that we 
have seen almost random drug use, degeneration of our youth, is 
in the inner cities. A lot of people say that well, there is 
not a lot of hope and education there. There is not a lot of 
future for a kid to go out and get a job and share the values 
that the rest of the country have.
    First of all, are your organizations, are you growing in 
the inner cities, and what kind of programs, if any, do you 
have in inner cities?
    Mr. Creighton. Well, we have had a special emphasis on the 
last 5 years of trying to increase the minority membership in 
the Boy Scouts, not only in inner cities, but in some of the 
farming communities and the Hispanic community. We have had as 
our backbone volunteers in delivering the scouting program to 
the youth, but to develop a stronger penetration of the inner 
cities, we have actually gone to a program of part-time, hired 
scoutmasters to make sure that we have stability in the adult 
leadership in those inner communities.
    We have, as I mentioned, our membership growth last year 
was the greatest in 26 years. We are seeing increased minority 
membership in the scouting youth across the country.
    Mr. Hastert. Ms. Dissinger.
    Ms. Dissinger. We are constantly trying to increase our 
membership and diversity and take our public awareness programs 
to communities that are not being reached. That is our effort.
    Mr. Hastert. Mr. Sarnecki.
    Mr. Sarnecki. We try to keep the young people in the urban 
areas occupied through various units, such as scouting and teen 
clubs, where we provide activities for them, especially the 
latch-key children who come home from school and have nothing 
to do, and that is an opportunity for them to get into trouble. 
It is just all-around activities that we try and give the 
youngsters in urban areas, as well as suburbia, involved with.
    Mr. Hastert. Have you had success in that area in the urban 
areas?
    Mr. Sarnecki. Yes, we have. We have been developing a new 
concept of family centers rather than just lodges, and through 
the family centers that we have established up to this point 
there are activities outdoors, as well as indoors, especially 
in the urban areas, where there is not an overabundance of 
vacant land for activities. But keeping the youngsters' minds 
active; that is the approach we are taking.
    Mr. Hastert. Mr. Marshall.
    Mr. Marshall. I am very happy to report that our membership 
numbers are growing in the large metropolitan areas. We have 
not had a national focus on this, but, there again, providing 
alternative, positive activities for youth, last year alone, in 
the fiscal year, we have rebuilt in the inner cities of America 
114 baseball diamonds for the youth, places that had become 
unable to be used by the youth in those inner-city areas. So we 
went in and rebuilt those facilities and got commitments by the 
parks and recs. department to keep them up and to provide 
programs so that these kids would have a clean and safe place 
to play.
    Mr. Hastert. Thank you very much. Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman. Again, I thank you 
for holding this hearing. I saw Mr. Creighton sitting there, 
and I have had Boy Scouts for the last 6 days in a row, it 
seems. I spoke at an Eagle Scout Award Dinner last Thursday and 
Sunday spoke at a 75th anniversary of the largest chapter in my 
district, so it is nice to see you here as well.
    Mr. Marshall, my ties with the Jaycees are my brother-in-
law and sister-in-law, who passed through the Jaycees. So, 
obviously, in our family Jaycees are viewed favorably.
    I do not have much connection with the Women's Clubs. I 
think you can understand why. I have had the pleasure to speak 
with these organizations in my area as well.
    I was pleased to hear the chairman's comments. I represent 
a district which is one of the most economically and racially 
diverse districts in the country, and I represent both the 
poorest zip code in the State of Wisconsin and the richest zip 
code in the State of Wisconsin.
    There is real inner peace that comes when you represent a 
district like that, because you know no matter what you do, you 
can irritate someone. In many ways, there is a tale of two 
cities that is reflected, at least in the State that I 
represent.
    When the chairman raised the issue of minority outreach or 
minority participation, that was touching that nerve with me 
again. I consider every one of your organizations a superb 
organization, just tremendous civic organizations, and I want 
to echo my concern that we do what we can to bring in all 
aspects of our society. I think that this is a real challenge.
    I think that people naturally gravitate to people more like 
them. That is not good; that is not bad. I just think that is 
the reality. I have three little kids, and my 4-year-old son 
has red hair, and my wife and I love the red hair, but he hates 
it because everybody gives him the noogies and say, ``You have 
got such red hair.'' The only time that he liked it was when he 
met another little kid with red hair. He said that was 
something that pleased him.
    So I guess my request to you as much as anything--I really 
do not have any specific questions--is to do what you can to 
try to include all aspects of our society. That is so 
important, and I think one of the dangers we fall into as 
politicians is that we want to represent the people that 
elected us. We want to take the resources to the people who 
elected us, but I think that especially with our youth, the 
youth that fall through the cracks and do not get involved or 
that come from families that do not get involved, I think many 
times are the ones that need our help the most. They are the 
ones that oftentimes do not get help.
    So, I am not even asking you to comment. If you want to 
comment, that is fine; but, again, I want to applaud you for 
the fine work you do, which is to try to ask you to do even 
more. That is a problem for people who do a lot. That means you 
are asking them to do a lot more. Thank you.
    Mr. Hastert. OK. Anybody wish to comment?
    Mr. Marshall. I just would like to say that on behalf of 
the Jaycees, we do appreciate this forum. Just the opportunity 
to testify here is extremely exciting for our membership, and 
it gives them increased credibility as they go into the 
communities to do this type of work. We do look forward to any 
proactive partnership that we can develop from this event.
    Mr. Creighton. Well, I would like to just comment, Rep. 
Barrett, on your request. I think it is very critical that the 
Boy Scouts do a better job in the minority community. It comes 
to mind because I have just spent some time recently with them, 
but to look at our new Governor in the State of Washington, 
Gary Locke, the first Asian-American Governor on the mainland, 
an Eagle Scout. To look at Togo West, the first, I believe, 
African-American Secretary of the Army, again, an Eagle Scout.
    We have created leaders. We have developed character in 
minorities in the past. Our challenge is to do a much better 
job of penetrating those communities today and in the future.
    Mr. Hastert. Thank you very much. Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. I want to join the 
comments of both the chairman and my colleague on the other 
side of the aisle in complimenting all of you for what you do. 
For those of us who think that Government has not done a great 
job in its efforts, your volunteer efforts, I think, are doing 
an important job in the fight against drugs and in the fight to 
just rebuild our communities or strengthen our communities, and 
I compliment each and every one of you for your efforts and for 
all that you do.
    I do have a couple of questions, but before I get to those, 
I want to say, Mr. Creighton, I was a Scout, a Cub Scout, a Boy 
Scout, and I formed my own Explorer Post; and last night my son 
crossed over from Cub Scouts to Boy Scouts. I had a ceremony in 
Phoenix that I had to miss because I was on a plane here.
    I also, on a personal note, want to say that I think 
Weyerhauser was instrumental in the formation of the University 
of Puget Sound Law School, and I was in the first class at 
University of Puget Sound Law School. So in that regard, I want 
to say thank you.
    I have some general questions. I just watched a program in 
Tucson. I was called by a fraternity brother from Tucson--my 
district is Phoenix--who said, come to Tucson; I want to show 
you an anti-drug program being presented at a Tucson high 
school, and would you give me a couple of hours of your time to 
drive down to Tucson and watch it? I did.
    It was a program presented to, I guess, all of the juniors 
and seniors in the high school. There were, I believe, five 
actors, all of whom had been alcoholics or drug addicts at some 
point in their lives, and the program was originally started, 
by the way, in Seattle. But they each went through a kind of a 
dramatic presentation, individually and as groups, about how 
drugs had impacted them.
    There were discussions of a drug deal that had gone bad, 
and the two of them would talk about that drug deal and their 
involvement in it. Another one would be an example of an 
argument that had occurred between one of them and one of their 
parents. Another member of the cast would play this out.
    Following their presentation, the students in the high 
school were able to ask them some questions. I found a couple 
of things fascinating, and I guess I am interested in your 
reaction.
    No. 1, the first question that the students from the school 
asked was, were those hypotheticals that you presented, or were 
they real experiences that you each had in your lives? The 
members of the cast answered that every, single little skit--
and they went through maybe half an hour or more of these--had 
been something that had really occurred in their lives.
    One of them had been in a drug deal that had almost gone 
bad before he had cleaned his life up, and the students were 
extremely impressed by that.
    The second thing that I found fascinating went at the 
issue, to a certain degree, of hypocrisy: adults' use of 
alcohol and kids' use of drugs. Each of the kids made the point 
that a drug is a drug is a drug. Each of these kids, I think 
three of the five were alcoholics, and the adults running the 
program were alcoholics.
    My question to you is, to what degree do your programs 
stress alcohol as a drug and the danger of kids getting 
involved in alcohol, and to what degree have you heard from 
professionals that it is good to treat them together, abuse of 
alcohol as well as abuse of drugs? Mr. Creighton.
    Mr. Creighton. Well, in the ``Drugs: A Deadly Game,'' I 
referred to, we treat alcohol as a drug, just as we do 
marijuana, cocaine, or other addictive substances.
    Mr. Shadegg. Have you watched the reaction amongst kids? 
Does that seem to play well, or do you have a sense for that?
    Mr. Creighton. I think they understand it. I think there is 
some conflict in their minds because they see alcohol being 
used in people's daily lives, and it is a little difficult for 
them to equate if it is a drug and it is bad, then why do I see 
my parents, why do I see people in restaurants, and why do I 
see people using it? But I do think that they understand that 
it can have significant negative effects on your life.
    Mr. Shadegg. The statistic they used in this presentation 
was that one out of every five people who come in contact with 
alcohol will turn out to be an alcoholic and that this is a 
sickness that may manifest itself in your life, and from there 
it is into drugs, or from drugs it is into alcohol.
    Ms. Dissinger.
    Ms. Dissinger. We have two resolutions. One is titled 
``Substance Abuse,'' and the other one is titled ``Substance 
Abuse Rehabilitation.'' So, therefore, we do not just talk 
about drugs, but we include alcohol, the whole gamut, in our 
programs that we are presenting and urging that they have 
programs for alcohol as well as the other drugs.
    Mr. Shadegg. Mr. Sarnecki.
    Mr. Sarnecki. I believe the issue is interrelated. From the 
youngsters that we have been dealing with in various youth 
awareness programs, they do stress the fact that it is 
basically a step upwards as far as substance abuse is 
concerned. You start off with drinking beer, and then later on 
it will lead to marijuana and then to cocaine or something 
stronger and faster than that. So, in our programs, we just 
generalize and, in fact, talk about the substance abuse in 
general.
    I just want to comment that as far as the presentation that 
you referred to, there are younger people involved and such, 
and I recently conducted focus group meetings among our 
members, and a member came up with a real good idea, and I 
said, ``Why didn't you ever bring that to our attention 
before?'' He said, ``No one ever asked us.''
    So I think the same thing refers to our youth of today. It 
is OK for us to guide the programs, to get them involved, but I 
think we desperately need the input of the kids who are 
involved with the various situations today so they can 
enlighten us and give us a better idea of how we should handle 
this situation.
    Mr. Shadegg. Now, all members of this cast--as I said, I 
think there were five young people in the cast--the oldest one 
was like 23 or 24. The youngest, I believe, was a young lady, 
18, and they were all recovering alcoholics or drug addicts who 
acknowledged and who had beaten their problem, but were talking 
about its impact on their lives.
    Mr. Marshall.
    Mr. Marshall. We treat all illegal substances as illegal 
substances. If it is alcohol, drugs, or tobacco, it is illegal, 
and there is Federal law that it is illegal for minors to have 
access to tobacco under the age of 18. So we make no 
distinction in that.
    Using the same thing you are talking about, with our ``Want 
To Get Wasted or Want To Get Home'' program, we use a 
videotape. In that videotape, you have, showing it to juniors 
and seniors, you have a young man on there who is high school 
age who is in a drug rehab center talking about his experience. 
We have a young man standing in front of a demolished car 
talking about how it felt to lose his father to a teenaged 
drunk driver. The last segment of that video is a young woman, 
a high-school-aged girl. She is in a wheelchair for life and 
talks about, you know, in a split second her life is changed 
forever.
    You can genuinely see that this has an impact on these 
juniors and seniors, hearing these real-life experiences and 
hearing, not from us, but from their peers, about this.
    Mr. Shadegg. My time has expired, Mr. Chairman. I would 
just urge you to continue to involve young people in making 
presentations to other young people.
    Mr. Hastert. I thank the gentleman from Arizona.
    Mr. Cummings from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman. Mr. 
Chairman, I want to thank you for holding this hearing. I want 
to thank all of you all for being here today.
    So often what happens in our society, people stand on the 
sidelines of life, complaining about what ought to be and 
complain about everything that is wrong but never lift a finger 
to make a difference. I take this moment to thank you.
    Mr. Creighton, you might want to add me to your list of 
folk who Boy Scouts' helped. Neither my mother nor father got 
through the first grade. I came up in the inner city of 
Baltimore. I was a Cub Scout and a Boy Scout, and I was in 
special education, and now I am a U.S. Congressman. I have to 
give a lot of credit with regard to that progress--and a Phi 
Beta Kappa and a lawyer.
    But Boy Scouts did something for me, and I hope that you 
will take this message back to wherever, you know, all across 
the country when you speak. It gave me a feeling of being 
included, to be a part of something. That is so significant, 
and I say to the others of you.
    You know, a lot of people think that drugs--I mean, I live 
in the inner city of Baltimore still, and a lot of people, I 
think, assume that kids just sort of rush out there to do 
drugs. Let me tell you of one of the biggest problems. One of 
you all said it a few minutes ago: Kids need things to do. They 
need things to do. They need to be a part of something.
    So often, what happens in the inner city is that mother is 
not there or the mother is working a job, maybe two jobs. Dad 
may not be there. So the fact is that a kid is growing up not 
being included, and that is, of course, what a family does. A 
family gives a child a sense of inclusion.
    The Boy Scouts did a lot for me. It brought me into a 
family. I was fortunate enough to have a mother and a father 
that were there for me, but they were working very, very long 
hours. But it gave me an opportunity to be included in 
something.
    Then there came a time that--the interesting thing is that 
my Boy Scout leader became, later on, a State Senator, and I 
joined him many years later as a part of the Maryland General 
Assembly. That, to me, just says a lot. I tell people so often 
that I consider myself the throw-away kid, the one that they 
thought would never grow up to be anyone, the one that they 
thought would never get anywhere.
    Everything that you do--and I say this to all of you; I do 
not have any questions; I just have these comments--every note 
that you write, every phone call that you make, every meeting 
that you go to, even when you are tired, you are making a 
difference in people's lives, and what you are doing is you are 
touching the future. You are touching the future.
    When we are long gone, the kids that you all touch will 
probably turn around and touch other young people, and so I am 
just so glad that you all are doing what you do, and I know 
that it is people like you who made a difference in my life.
    I have made it my business to try to take the same kind of 
effort that you put into your jobs and your efforts to put into 
other young people's lives so that they can grow up maybe one 
day and sit in this chair and say that maybe one day I was a 
throw-away kid, but because of various organizations like the 
organizations that you all are part of, I am now sitting in the 
U.S. Congress, the greatest government in the world. I just 
wanted to thank you.
    Mr. Hastert. Well, I am not sure what all of you can say to 
that, but please, does anybody have any comments?
    Mr. Creighton. We are going to do more.
    Mr. Hastert. Thank you.
    Ms. Dissinger. I would just like to say, as a volunteer 
service organization, we are so appreciative of having this 
opportunity, because we work at the grassroots level and we 
coalesce, and it is so important that we have partnerships 
between volunteers, business, and Government agencies.
    Mr. Hastert. You know, if I may, just for a second, I 
listened to this testimony in other meetings that we have had, 
and it really comes down--I was in education for 16 years. I 
had an Explorer post. I have done a lot of things. I probably 
could have done some things better, but it is really the 
inherent value of the human being. If we find ways to bring 
those kids into that reality that they are worth something, 
there is something that they can do to join in making the world 
better, whatever it might be, or they have a value, I think 
that is what our goal is.
    We constantly cannot afford to lose that view or that idea 
that we need to hold out there. It has to be out there all the 
time.
    I am going to ask Mr. Souder, who is our vice-chairman, if 
he has any questions.
    Mr. Souder. One thing that I wondered is sometimes when we 
look at the--there is a tendency to say, and I think one of you 
mentioned in your testimony--I had to step out for part of the 
testimony, but that it would be good to have one target drug 
program. That is kind of always the way the Government looks at 
it and says we need to have a unified effort as opposed to a 
coordinated effort of a lot of different groups.
    I can see the advantage of a coordinated effort on a school 
and in the kids, because they see a common theme coming that 
seems to be organized and not overlap different things. But it 
strikes me that one of the things, for example, in Ms. 
Dissinger's testimony, you mentioned different types of things 
that the kids were doing in different places, which suggests, 
from what I have seen, too, in a lot of the schools and 
different organizations that impact with the schools, that part 
of the benefit here is letting the kids have some ownership of 
the programs.
    It is not necessarily just that the kids that are reached 
by the programs indirectly. In other words, if they pass out 
pencils or pass out t-shirts with the program, it is not just 
the kids who you are reaching through the programs, but you are 
actively, by providing activities and getting a number of the 
kids involved in the organization, getting kids themselves with 
the sense of ownership in the anti-drug war and that if we do 
not have--just having been a kid not that many years ago, 
although it seems like a long time, that everybody wants to 
have a title in an organization or feel like the organization 
is theirs. If we had one centralized thing, as opposed to a 
proliferation of a lot of different groups, we would not have 
as many people with a vested stake in it, in their own 
variation of making their own decisions.
    I wonder what your reaction to that is in the voluntary 
field. For example, Boy Scouts have their own program, and each 
of you have different groups with their own programs. The same 
thing is true at the adult level. If you have the Moose 
involved in one program and you have the Jaycees involved in 
another program and you have the Lions Club involved in another 
program, each group has some stake in it; whereas, if there was 
one program that somehow a committee came up with, the local 
club, would they not have as much stake in that?
    Mr. Marshall. The thing that I noticed in the testimony and 
in talking to my fellow service club leaders is the way they 
embraced, say, the ``Just Say No'' program. I think everybody 
who testified in this particular setting said that President 
Reagan had asked, you know, had called each community service 
club in and said, ``Will you get involved in this?'' and they 
did. They all adapted it to various different situations, but 
they all were under the umbrella of this one particular 
endeavor.
    It had a theme, it had a commonality of purpose, but then 
again, it left enough leeway that you could do different things 
to fit different communities and take it to different levels.
    It has been my experience with volunteers that most 
recently, in the nineties, that they have very little spare 
time. The ability to go out and create a program is not as 
great as it was 10, 15 years ago, has been my experience. They 
like a little more structure. They will go out and implement 
things and make them happen, but they would like a little more 
guidance than they used to.
    So I believe a commonality of purpose, but allow some 
flexibility for the ownership, the buy-in, the creativity, but 
I think we do need a sense of direction and an overall theme to 
the campaign.
    Mr. Hastert. Thank you very much. Thank you for 
participating and your excellent testimony.
    It is now my distinct pleasure to welcome the second panel 
of civic group representatives. Gordon Thorson of the Veterans 
of Foreign Wars; Howard Patterson of the Lions Clubs 
International; William Pease of the American Legion; Dick 
Herndobler of the Benevolent and Protective Order of the Elks; 
Don Baugher and Larry Chisholm of the Masonic National 
Foundation for Children; and Dennis Windscheffel, a drug 
prevention program consultant, who has done a great deal to 
coordinate the efforts of these groups.
    If you would all stand and raise your right hands. Our 
committee rules require me to swear you in.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses 
responded in the affirmative. Thank you, and let us find a seat 
here, and please proceed, Mr. Herndobler.

STATEMENTS OF DICK HERNDOBLER, BENEVOLENT AND PROTECTIVE ORDER 
   OF ELKS; GORDON THORSON, NATIONAL YOUTH PROGRAM DIRECTOR, 
    VETERANS OF FOREIGN WARS; HOWARD PATTERSON, FIRST VICE-
 PRESIDENT, LIONS CLUB INTERNATIONAL; WILLIAM PEASE, ASSISTANT 
DIRECTOR FOR CHILDREN AND TEENS PROGRAM, AMERICAN LEGION CHILD 
  WELFARE FOUNDATION; DON BAUGHER, PRESIDENT, ACCOMPANIED BY 
 LARRY CHISHOLM, NATIONAL EXECUTIVE DIRECTOR, MASONIC NATIONAL 
    FOUNDATION FOR CHILDREN; AND DENNIS WINDSCHEFFEL, DRUG 
                 PREVENTION PROGRAM CONSULTANT

    Mr. Herndobler. Thank you, Mr. Chairman. My name is Dick 
Herndobler, and I serve as the founding director and senior 
adviser of the Elks Drug Awareness Program. I started the 
planning process for our program in late 1982, and with an 
additional grant from our order in 1983, the program was 
introduced. The program is administered by an executive 
director, 50 State chairmen, and nearly 2,200 chairmen who have 
volunteered to direct drug awareness programs in their local 
communities.
    I am also responsible for working with the Government 
agencies and national organizations involved in this struggle 
to provide a drug-free environment for our children and 
grandchildren so they can become productive, responsible, and 
caring citizens.
    We are a supportive organization, and we have two goals. 
One is to donate the latest and most factual information on 
alcohol, tobacco, and other drugs to parents and teachers of 
children in the elementary grades, as they have the greatest 
influence and can talk to their children and warn them of the 
dangers of using these substances.
    Our second goal is to provide wholesome and constructive 
activities after school and on weekends as alternative 
activities to drugs, gangs, and violence.
    In support of our first goal, the printing of our 12 
current drug awareness pamphlets and special pieces has reached 
15 million copies this last year, making a total donation of 
over 120 million pieces since our program began. The materials 
are constantly being reviewed, updated, and changed to keep 
them current. Our chairmen, when requested by school districts, 
purchase videos, provide equipment and provide nationally known 
speakers and musical groups that have a no-use message.
    We have cooperated with Government agencies and national 
organizations, such as working with the Center for Substance 
Abuse Prevention (CSAP). We have printed and donated over 10 
million copies of their ``Tips for Teens'' series and 
distributed them through our own network, as well as the Elks 
Radar Specialty Center in Alabama, in cooperation with the 
National Clearinghouse for Alcohol and Drug Abuse Information 
(NCADI). When the Clearinghouse is out of material, then they 
can use our material.
    We have printed, in cooperation with the Federal Bureau of 
Investigation (FBI), their ``Archie'' comic book, which 
emphasizes positive peer counseling. With encouragement from 
the director of the Drug Enforcement Administration, we have 
printed their booklet entitled ``Speaking Out Against Drug 
Legalization,'' as well as their pamphlet on a drug called 
``Cat.''
    For 15 years, we have supported and co-sponsored the PRIDE 
International Drug Conference, and our local and State chairmen 
have raised funds to assist an average of 1,000 young people to 
attend this conference every year.
    The Greenville Family in Action Resource Center in South 
Carolina allowed us to help them by printing and distributing 
their parenting brochure. We work also with the National Family 
Partnership by providing the funds to print and distribute 
their newsletter, as well as distribute their Red Ribbons 
during that campaign.
    In support of our second goal, another department of our 
organization provides after-school and weekend activities for 
young people. The basketball ``Hoop Shoot'' program involves 
over 1\1/2\ million boys and girls, and we are one of the 
largest sponsors of scouting and the Eagle Scout programs.
    With the Campfire Girls, Boys' State and Girls' State YWCA 
and YMCA programs and others, we have touched the lives this 
last year of 2,900,000 youngsters.
    We volunteer as coaches and sponsors of youth athletic 
teams, such as the Little League, football, bowling, youth 
Olympics, Special Olympics, summer camps, hunting clubs, and 
teen centers involving more than 870,000 young people.
    Elks have a very strong national commitment to work to 
support Government agencies and national parent groups to 
provide a drug-free environment for the Nation's children. In 
many communities, the Elks Lodge serves as a meeting place for 
youth groups and adult groups that share concerns about the 
increase in use of drugs. We involve young people in many of 
our other ongoing programs.
    I wish I had the time to describe all nine of them, but I 
am sticking to the Drug Awareness Program particularly. A quick 
review of the 1996 Annual Report of the Elks National Drug 
Awareness Program reveals that programs were established in 
2,174 communities that reached 4,900,000 young people, as well 
as more than 1,780,000 adults. There were 36,344 of our own 
members actively involved, donating over 390,000 volunteer 
hours.
    We trained 25,000 individuals this last year to work in the 
prevention field in their own community, and we financed 3,432 
different drug awareness programs.
    Mr. Chairman, I know that the recitation of facts and 
figures is not always pleasant to listen to, but I brought them 
forth primarily to emphasize the fact that there is a vast 
reservoir, a vast, untapped reservoir of men, women, and young 
people out there in the grassroots areas who are able and 
willing to devote the time, the energy, and the dedication to 
this struggle to solve the drug problem.
    They want to be part of the solution to that problem. I 
encourage you to turn to us and let us help you in any way that 
we can.
    Mr. Chairman, I am very pleased to have the opportunity to 
appear before this committee.
    [The prepared statement of Mr. Herndobler follows:]
    [GRAPHIC] [TIFF OMITTED] T0342.020
    
    [GRAPHIC] [TIFF OMITTED] T0342.021
    
    [GRAPHIC] [TIFF OMITTED] T0342.022
    
    [GRAPHIC] [TIFF OMITTED] T0342.023
    
    Mr. Hastert. Thank you very much for your testimony. 
Obviously, one of the things we want to do is to take that 
strength that we have all across this country and be willing to 
go out and make the difference one on one. I appreciate your 
efforts and your suggestions.
    Mr. Thorson, from the Veterans of Foreign Wars.
    Mr. Thorson. Mr. Chairman, members of the subcommittee, it 
is my pleasure to be here today representing the Veterans of 
Foreign Wars and our 2 million members.
    Before we get started here, I would like to set the record 
straight to ensure that all of you realize that I, too, was a 
Boy Scout. I am very proud of that, and really, you know, it is 
kind of, after listening to all of the speakers and hearing 
about their scouting background, it reminded me of the 
importance of scouting. It also reminded me of the fact that 
the Veterans of Foreign Wars throughout the country sponsors 
1,232 scouting units nationwide.
    To answer your question before it is asked, Mr. Chairman, 
you asked the other panel about what program that we involve 
ourselves with that we feel is doing the most in the drug 
effort. You know, our involvement with boy scouting, through 
the Veterans of Foreign Wars, is a wonderful opportunity for 
all of us in the Veterans of Foreign Wars to give something 
back to our youth and give something back of significance.
    So I guess I want to jump on the bandwagon for the Boy 
Scout program and make it very clear to this panel that 
scouting has made a significant impact. Most young men in 
scouting, and in girl scouting, too, young women, that are 
involved in those kinds of programs do not have the kinds of 
problems that we are here facing today.
    Today, Members of Congress have the opportunity to consider 
the contributions of volunteer-based organizations in helping 
our young people stay drug free. As we formulate a national 
response to America's growing drug use among our very young, 
our Nation's future, after we consider the number of lives 
already lost and wasted, the billions of dollars already spent 
to combat drug trafficking and to rehabilitate the abusers, and 
the millions of productive hours wasted in fighting the drug 
war, it is clearly time that we all cooperate and become more 
involved and organize to save America's youth, our very future.
    We must act quickly and sure to take back control of our 
country.
    You know, the Veterans of Foreign Wars was formed way back 
in 1899, and chartered by the U.S. Congress back in 1936. The 
purpose of our organization, or I should say, our corporation, 
is fraternal, patriotic, historical, and educational.
    Our all-volunteer organization is made up of approximately 
10,500 VFW posts located throughout our Nation. Our diverse 
membership is made up of men and women who have served their 
country during time of war, time of combat in military service, 
individuals who want to continue their service to the country 
as they work to improve their communities and make America a 
better place.
    Through the past several years, many VFW posts have 
involved their members in most every kind of youth program 
designed to create an awareness and/or eliminate substance 
abuse.
    In preparing for this particular testimony, I was looking 
through our records and looking back at the history of drug 
awareness in our organization. In fact, I would like to note 
that in our next issue of the ``Veterans of Foreign Wars'' 
magazine, which, again, has a distribution of over 2 million 
copies, we have an article coming up concerning drug awareness. 
In fact, I was looking at that particular article, and I 
thought that maybe I should share some of it with you.
    I'd like to read to you a resolution that was passed by the 
VFW. ``Resolved, that the President of the United States be 
respectfully requested to set aside a week to be known as 
`National Anti-dope Week' and that he not only set in renewed 
motion every possible Government agency whose function it is to 
stamp out this evil, but that he cause to be gathered together 
an international conference of competent men and women who will 
formulate plans and methods of procedure looking toward the 
eradication of the narcotic-drug evil.''
    Well, that particular resolution was passed and sent to 
President Warren G. Harding back in 1923. I find it curious 
because after reading this resolution written back in 1923, and 
realizing that this drug problem has been with us since way 
back then, I know that the author of an article that caused us 
to write that resolution had indicated in the end, the author 
indicated that they realized that only a concerted effort at 
home by concerned citizens could cure this ill.
    Now, that is what they were saying back in 1923. It seems 
to me that is what we are saying today. So I guess we have come 
full circle, but it points out that the VFW and our Nation, we 
have been concerned about this drug menace for 75 years, and 
maybe we ought to get on with it.
    Through the past several years, again, we have involved 
ourselves in many kinds of programs. We have worked with other 
organizations and volunteered countless dollars and hours to 
make a difference in the war against drugs. In fact, during a 
recent 1-year period, 1995 to 1996 program year, over 14 
million volunteer hours were spent in community service 
projects.
    The VFW has worked with police officers. We have worked 
with local social service agencies. We have worked with schools 
to sponsor needed programs that provide consistent anti-drug 
messages. VFW posts have worked with self-help with self-help 
groups and made open their post facilities to groups such as 
Narcotics Anonymous and Alcoholics Anonymous. We have also 
distributed ``Just Say No'' buttons, circulated booklets, 
distributed a children's coloring book, and instituted a 
contract-for-life program. We have provided videotapes.
    Our organization and the majority of the organizations 
represented here today have provided much time, materials, and 
money to help educate young people. But just educating our 
children in the dangers of substance abuse does not appear to 
be solving the problem. It does not seem to matter how cute, 
how marketable, or how politically correct we make our program 
offerings, we end up with only ``feel-good'' programs with no 
real, lasting value.
    The VFW does not even pretend to have the answer to the 
drug problems in America today, but we do have a large number 
of dedicated Americans willing to help.
    I see that my time has run out. Could I just have a couple 
of minutes?
    Mr. Hastert. Yes, if you could kind of summarize.
    Mr. Thorson. OK. If I could summarize, we believe that our 
organization can best serve the War on Drugs by doing what we 
do best. Teaching young people about our country, the flag, and 
patriotism, while offering the opportunity to compete for 
valuable scholarship dollars is a significant and meaningful 
contribution.
    The VFW strongly believes that the future of our country 
centers on a resolve that we will concentrate on educating our 
young from crib to college and to provide parents with the 
opportunity and responsibility to be an active participant in 
their children's future.
    That concludes my statement. I will be happy to respond to 
any questions you may have.
    [The prepared statement of Mr. Thorson follows:]
 Prepared Statement of Gordon R. Thorson, Director, National Voice of 
Democracy, Youth Activities & Safety Programs, Veterans of Foreign Wars 
                          of the United States
    Mr. Chairman and Members of the Subcommittee:
    On behalf of the more than two million members of the Veterans of 
Foreign Wars of the United States, I wish to commend and to thank you 
for holding this hearing to emphasize the outstanding efforts of 
volunteer-based organizations in helping our young people stay drug 
free. It is very important for Members of Congress to understand the 
significant contributions of community based volunteer organizations as 
we formulate a national response to America's drug problem. By holding 
this hearing, you are clearly demonstrating a commitment to redressing 
the most insidious problem facing our nation today.
    One of the most evil and perplexing issues confronting the country 
today is substance abuse by a large and increasingly significant 
segment of our population. We do not need to remind this subcommittee 
that our country, in fact the whole world, is immersed in drug and 
substance abuse. The horrible consequences of substance use and abuse 
plague our very existence. Most every time we read a newspaper, listen 
to the radio, or watch television we hear vivid testimony and must face 
the ugly consequences of drug and alcohol-related accidents, crime, 
violence, suicides and mayhem. It has become very commonplace to hear 
speakers declaring that every American must become involved in the 
effort to stop the drug insanity. Most all agree that we must somehow 
stop the rhetoric, halt the loss of young lives and return to an 
America that promotes basic human values. After we consider the number 
of lives already lost and wasted; the billions of dollars already spent 
to combat drug trafficking and to rehabilitate the abusers; and the 
millions of productive hours wasted in either fighting or being a 
victim of the drug war, it is clearly time that we all cooperate, 
become involved and organize to rid America of this blight on civilized 
society. We must act quickly and surely to take back control of our 
country.
    The Veterans of Foreign Wars of the United States was formed in 
1899 and chartered by the United States Congress back in 1936, the 
purpose of our corporation is fraternal, patriotic, historical and 
educational; to preserve and strengthen comradeship among our members; 
to assist worthy comrades; to perpetuate the memory and history of our 
dead, and to assist their widows and orphans; to maintain true 
allegiance to the Government of the United States of America, and 
fidelity to its Constitution and laws; to foster true patriotism; to 
maintain and extend the institutions of American freedom, and to 
preserve and defend the United States from all her enemies, whomsoever.
    Let me give you a brief overview of our organizational structure 
and the kinds of program activities we currently provide to communities 
throughout the country. Our all-volunteer organization is made up of 
approximately 10,500 VFW Posts located within 54 VFW Departments that 
are identified by each of the 50 states, Europe, Latin America/
Caribbean, Pacific Areas and the District of Columbia. Our diverse 
membership is made up of men and women who have served this country 
during time of war in military service, individuals who want to 
continue their service to country as they work to improve their 
communities and make America a better place.
    The purpose of the Veterans of Foreign Wars as stated in our 
Congressional Charter clearly directs our organization to offer 
programs that center on developing true patriotism, help educate our 
young people on the history of democracy, foster true allegiance and 
promote duty to country. Through the past twenty years our many VFW 
Posts have involved their members in most every kind of youth program 
designed to create an awareness and/or eliminate substance abuse. We 
have worked with other organizations and volunteered countless hours 
and dollars in an attempt to make a difference in the ``War Against 
Drugs.'' During a recent one year period (1995-96 program year) members 
contributed 14,192,651 Volunteer Hours into community service projects. 
To name just a few of our many cooperative substance abuse service 
activities:
    <bullet> VFW Posts have worked with local Police officers to 
implement grassroots anti-drug and anti-crime programs in an attempt to 
build community morale and take back the streets.
    <bullet> Working with local social service agencies our members 
have participated in ``big brother'' programs, designed to give youth 
an opportunity to experience what a normal supportive environment is 
all about.
    <bullet> VFW Posts have worked with schools to sponsor needed 
programs that provide consistent anti-drug messages. This includes 
everything from purchasing anti-drug materials for classrooms, to 
sponsoring drug awareness speakers, to spearheading the establishment 
of drug-free school zones.
    <bullet> And many VFW Posts work with self-help groups and have 
opened up their post facilities to groups such as Narcotics Anonymous 
and Alcoholics Anonymous.
    Through the years we have involved ourselves in several VFW 
initiatives to help educate young people in our local communities:
    <bullet> We distributed ``Just Say No'' buttons.
    <bullet> Circulated booklets such as What Every Teenager Should 
Know About Alcohol and About Building A Drug-Free Community.
    <bullet> Distributed a childrens coloring book called Lets Talk 
About Alcohol And Other Drugs.
    <bullet> Instituted a Contract for Life program, that provided a 
contract agreement between the teenager and his or her parent.
    <bullet> We have also provided video-tapes to schools called 
``Boozers and Users'' with the intention of educating students of all 
ages on the dangers of alcohol and drug abuse.
    Our organization and the majority of organizations represented here 
today have provided much time, materials and money to help educate 
young people. But just educating our children on the dangers of 
substance use and abuse does not appear to be solving the problem. It 
doesn't seem to matter how cute, how marketable, or how politically 
correct we make our program offerings, we end up with only ``feel-
good'' programs with no real lasting value.
    The VFW does not even pretend to have the answer to the drug 
problems in America today, but we do have a large number of dedicated 
American's willing to help. Men and women who served to protect and 
preserve our republic during time of war. Dedicated men and women who 
have made a life-long commitment of service to country and have 
demonstrated a willingness to give their time to support positive 
community service and youth programs.
    After reviewing the following five point strategy offered by the 
Office of National Drug Control Policy:
    1. Motivate America's youth to reject illegal drugs and substance 
abuse.
    2. Increase the safety of America's citizens by substantially 
reducing drug-related crime and violence.
    3. Reduce health, welfare, and crime costs resulting from illegal 
drug use.
    4. Shield America's air, land, and sea frontiers from the drug 
threat.
    5. Break foreign and domestic drug sources of supply.
    It becomes increasingly obvious that ``Motivating America's youth 
to reject illegal drugs and substance abuse.'' is the only segment of 
this strategy that the Veterans of Foreign Wars can reasonably address. 
If goal number one could be successfully achieved and youth could be 
motivated to reject illegal drugs and substance abuse . . . . the other 
four goals would become unnecessary as there would be no market.
    The VFW currently offers good solid programs designed to give 
students opportunity, education and is an alternative to a negative 
life style. We promote educational opportunities, a sense of community, 
pride in their country, respect for the flag and hope for the future. 
One example is the premier youth program of our organization ``the 
Voice of Democracy Program'' it has been in existence for fifty years, 
and is an excellent example of an educational scholarship opportunity 
offered by the VFW to high school students. (The Voice of Democracy 
Program is a National Audio Essay Competition designed to give 10th, 
11th, and 12th grade high school students the opportunity to voice 
their opinions on their responsibility to our country and to convey 
their thoughts about our republic and win valuable scholarships. Each 
year, the program centers on a patriotic theme that challenges the 
student participants to think about our country in a positive manner. 
The 1997-98 theme is: ``My Voice in Our Democracy''.) We now realize 
that our organization can best serve the ``War on Drugs'' by doing what 
we do best. Teaching young people about our country, the flag, and 
patriotism, while offering the opportunity to compete for valuable 
scholarship dollars is a significant and meaningful contribution. Every 
organization seated here today has similar opportunities to offer our 
youth, but we need a mechanism to better publicize the many 
opportunities and a way to coordinate our efforts.
    The VFW strongly believes the future of our country centers on a 
resolve that will center on educating our young from crib to college 
and provide parents with the opportunity and responsibility to be an 
active participant in their childrens future. A return to promoting 
family values, love of country and a respect for our fellow man would 
go a long way towards solving our countries problems. In a recent 
speech in Boston, Massachusetts, President Clinton said the message to 
Congress should be direct: ``Cross all party lines, throw politics 
away, throw the speeches in the trash can, join hands, let's do what 
works and make America the place it has to be.''
    In closing, Mr. Chairman, the VFW strongly believes the future of 
our country centers on a organized multifaceted approach to resolving 
the drug problem with each organization, agency and individual 
volunteer doing what they do best in the effort. With cooperation, 
coordination, communication, we may have a chance to get excessive 
substance use and abuse by America's youth back into control.

    Mr. Hastert. Thank you, Mr. Thorson.
    Mr. Patterson, of the Lions Club International. Thank you.
    Mr. Patterson. Mr. Chairman and members of the committee, 
my name is Judge Howard L. Patterson, Jr. I presently serve as 
the first vice-president of Lions Clubs International. I thank 
you for the invitation allowing our organization to take part 
in the hearing addressing this very important issue.
    Our international president this year, Augustine Soliva, 
from Brazil, wanted to be here today because of his love for 
children, but he could not attend due to prior commitments in 
another part of the world.
    Lions Clubs International was founded in 1917 by a Federal 
businessman in Chicago, IL by the name of Melvin Jones, who saw 
a vision on the importance of serving the community. Over the 
last 80 years, our association has grown from a small group of 
businessmen to become the world's largest service-club 
organization, with 1.4 million men and women members belonging 
to over 43,000 affiliated clubs. We serve more than 43,000 
communities in 182 countries throughout the world.
    From the beginning, our motto has been, ``We serve.'' In 
1925, inspired by Helen Keller, we accepted her challenge and 
have become known over the years as the ``Knights of the 
Blind.''
    Although much of our work has been provided to care for the 
needs of the blind and to restore sight to the sightless, our 
association has also focused continually since its inception on 
serving the needs of our young people. Over the years, various 
programs have been developed, including the establishment in 
1968 of our Leo Club program. This program now has nearly 
130,000 youth members in over 5,000 clubs in 100 countries. Our 
Leo members develop leadership, experience, and opportunity 
through community service.
    Our association sponsors the Lions Youth Exchange Program, 
where annually over 4,000 young people between the ages of 15 
and 21 have the opportunity of sharing in family and community 
life in another country. Closely related to our youth exchange 
is Lions International Youth Camp Program. Young people of 
different nationalities are brought together to share a camping 
experience in a spirit of friendship and understanding.
    Lions Clubs International also sponsors a worldwide Peace 
Poster Contest for youth, ages 11 through 13. This annual 
contest provides youth an opportunity to tell us adults in 
picture form how they see the world or would like to see the 
world.
    Thanks to the commitment from our local clubs, our 
organization is the largest sponsor of Boy Scout troops outside 
of the church organizations. Our local clubs also help sponsor 
many other youth activities, as well as youth scholarship 
programs, school-based activities, sporting events, and many 
other programs too numerous to list.
    If any activity has a positive value to our young people 
and one of our clubs has been approached to assist, we are 
probably involved.
    In 1982, Lions Clubs International made a very important 
long-term commitment to do what we could to address drug-abuse-
related problems. As one of the first major service 
organizations to do so, our organization felt it was our 
obligation because of the seriousness of the drug abuse 
problem. We fully understand that the drug abuse problem facing 
this country is also a real threat to other countries 
throughout the world as well.
    Our association is continually encouraging our local clubs 
to assist in community drug-abuse-prevention efforts. Because 
of our strong commitment to address this issue, Lions Clubs 
International provided funding to help underwrite the 
development of school-based, drug abuse and violence-prevention 
curricula. This was accomplished in partnership with Quest 
International. The curricula provided youth with skills 
necessary to resist negative influences, such as alcohol, 
tobacco, and other harmful drugs, teaching them to make 
healthy, mature decisions.
    With the financial assistance of many of our clubs, the 
curricula have reached over 10 million young people worldwide, 
at a rate of approximately 2 million students per year. The 
Lions/Quest curricula include ``Skills for Growing'' for 
elementary school students, ``Skills for Adolescents'' for 
middle-school students, and ``Skills for Action'' for high 
school students.
    Most recently, our organization renewed its commitment to 
youth by adoption of the Lions Youth Outreach Program. The 
theme of this program is ``Challenging Tomorrow--Today.'' The 
mission of the Youth Outreach Program is to help and to 
challenge youth to learn to achieve and to serve. Its goal is 
to develop responsible adult citizens, parents, and community 
leaders for the future. Important program components include 
drug abuse prevention, community education, environmental, 
health, international, and recreational services.
    As part of the Youth Outreach Program, Lions Clubs 
International has invested in the production of a video and 
accompanying written materials entitled ``The Future Is Ours--
So Now What?'' This program, sponsored by our local clubs, is 
presently being offered in North America. It is our goal to 
make this program available at no charge to any requesting 
schools and youth-serving organizations to help motivate young 
people in service. A program kit has been provided to the 
subcommittee staff, which can be shared with interested 
congressional Members.
    This year, Lions Club Youth Outreach has gained a new 
dimension. Lions Clubs around the world are becoming involved 
in helping street children, who are at great risk. There are 
well over 100 million children roaming the streets without 
proper shelter or guidance. Our clubs are being educated on the 
scope of the street-children problem, as well as being informed 
with the information and ideas on how they can become involved 
in alleviating this problem in their communities.
    Because of the strong belief that investing in our young 
people is the best protection for our future, our association 
made a most important decision to host a very timely summit 
leadership meeting last June here in Washington, DC. The summit 
was attended by representatives from over 30 of our leading 
civic and youth-serving, volunteer organizations, including 
many here testifying today at this hearing.
    Also attending were representatives from drug-prevention-
based coalitions, Federal Government agencies, as well as key 
Members of Congress with drug-control oversight 
responsibilities.
    The purposes of the June summit were to share current 
efforts and objectives of each association's mission to help 
young people to discuss possible collaborative initiatives and 
to identify strategies to encourage and support youth-volunteer 
efforts in the communities. Addressing problems related to drug 
abuse was seen as essential in the efforts of every 
organization which attended.
    Our organization believes that the summit was a very 
important step toward initiating much-needed action. Copies of 
the summit summary report and our international magazine with 
an article covering that meeting has been provided to 
subcommittee staff for distribution to each congressional 
Member.
    In closing, our organization would like to publicly 
acknowledge the support provided by so many others who devote 
their resources and energy as we do to help young people to 
become the best they can be. Our association realizes that the 
only way that we will effectively address the many needs and 
serious challenges facing young people today is to unite, 
working together for this common cause.
    For the sake of our children and youth, I can assure you 
that the Lions Clubs International, as the largest service-club 
organization, accepts the responsibility to maintain a 
leadership role in our Nation's efforts toward a victory over 
the War on Drugs. Thank you very much.
    [The prepared statement of Mr. Patterson follows:]
   Prepared Statement of Judge Howard L. Patterson, Jr., First Vice 
                  President, Lions Club International
    Good morning! My name is Judge Howard L. Patterson, Jr. I presently 
serve as the 1st Vice-President of Lions Clubs International. I thank 
you for the invitation allowing our organization to take part in this 
hearing addressing a very important issue. Our International President 
this year, Augustin Soliva from Brazil, wanted to be here today because 
of his love for children, but could not attend due to prior commitments 
in another part of the world.
    Lions Clubs International was founded in 1917 by a local 
businessman in Chicago, Illinois, Melvin Jones, who saw a vision on the 
importance of serving the community. Over the last 80 years our 
Association has grown from a small group of businessmen to become the 
world's largest service club organization. With 1.4 million men and 
women members belonging to over 43,000 affiliated clubs, we serve more 
than forty-three thousands communities in 182 countries throughout the 
world. From the beginning, our motto has been ``We Serve.'' In 1925, 
inspired by Helen Keller, we accepted her challenge and have become 
known over the years as the ``Knights of the Blind.''
    Although much of our work has been provided to care for the needs 
of the blind and to restore sight to the sightless, our association has 
also focused continually on serving the needs of our young people. Over 
the years, various programs have been developed including the 
establishment in 1968 of our Leo Club program. This program now has 
nearly 130,000 youth members in over 5,000 clubs in 100 countries. Our 
Leo members develop Leadership, Experience, and Opportunity through 
community service.
    Our Association sponsors the Lions Youth Exchange Program where 
annually over 4,000 young people between the ages of 15-21 have the 
opportunity of sharing in family and community life in another country. 
Closely related to youth exchange is the Lions International Youth Camp 
Program. Young people of different nationalities are brought together 
to share a camping experience in a spirit of friendship and 
understanding. Lions Clubs International also sponsors a world-wide 
Peace Poster contest for youth ages 11-13. This annual contest provides 
youth an opportunity to tell us adults in picture form how they see the 
world or would like to see the world.
    Thanks to the commitment from our local clubs, our organization is 
the largest sponsor of Boy Scout troops, outside of church 
organizations. Our local clubs also help sponsor many other youth 
agencies as well youth scholarship programs, school-based activities, 
sporting events, and many more programs too numerous to list. If an 
activity has positive value to our young people, and one of our clubs 
is approached to assist, we are most likely involved.
    In 1982, Lions Clubs International made a very important long term 
commitment to do what we could to address drug abuse related problems. 
As one of the first major service organizations to do so, our 
organization felt it was our obligation because of the seriousness of 
drug abuse. We fully understand that the drug abuse problem facing this 
country is also a real threat to other countries throughout the world 
as well. Our Association is continually encouraging our local clubs to 
assist in community drug abuse prevention efforts.
    Because of our strong commitment to address this issue, Lions Clubs 
International provided funding to help underwrite the development of 
school-based drug abuse/violence prevention curricula. This was 
accomplished in partnership with Quest International. The curricula 
provide youth with skills necessary to resist negative influences such 
as alcohol, tobacco, and other harmful drugs, teaching them to make 
healthy, mature decisions.
    With the financial assistance of many of our clubs, the curricula 
has reached over ten million young people world-wide at a rate of 
approximately two million students per year. The Lions-Quest curricula 
includes Skills for Growing for elementary school students, Skills for 
Adolescent for middle school students, and Skills for Action for high 
school students.
    Most recently, our organization renewed its commitment to youth by 
adoption of the Lions Youth Outreach Program. The theme of this program 
is ``Challenging Tomorrow--Today.'' The mission of the Youth Outreach 
Program is to help and challenge youth to learn, to achieve, and to 
serve. Its goal is to develop responsible adult citizens, parents and 
community leaders for the future. Important program components include 
drug abuse prevention, community, educational, environmental, health, 
international, and recreational services.
    As part of the Youth Outreach Program, Lions Clubs International 
has invested in the production of an video and accompanying written 
lesson materials entitled, ``The Future In Ours . . . So Now What?'' 
This program sponsored by our local clubs is presently being offered in 
North America. It is our goal to make this program available at no 
charge to any requesting schools and youth serving organizations to 
help motivate young people in service. A program kit has been provided 
to subcommittee staff which can be shared with interested Congressional 
members.
    This year, Lions Youth Outreach has gained a new dimension. Lions 
clubs around the world are becoming involved in helping street 
children--who are at great risk. There are well over 100 million 
children roaming the streets without proper shelter of guidance. Our 
clubs are being educated on the scope of the street children problem, 
as well as being provided with information on ideas on how they can 
become involved in alleviating this problem in their communities.
    Because of our strong belief that investing in our young people is 
the best protection for our future, our Association made a most 
important decision to host a very timely leadership summit meeting last 
June here in Washington, D.C. The summit was attended by 
representatives from over thirty of our leading civic and youth serving 
volunteer organizations, including many here today testifying at this 
hearing. Also attending were representatives from drug prevention-based 
coalitions, federal government agencies as well as key members of 
Congress with drug control oversight responsibilities.
    The purposes of the June summit were to share current efforts and 
objectives of each organization's mission to help young people, to 
discuss possible collaborative initiatives, and to identify strategies 
to encourage and support youth volunteer efforts in communities. 
Addressing problems related to drug abuse was seen as essential in the 
efforts of every organization which attended. Our organization believes 
that the summit was a very important step towards initiating much 
needed action. Copies of the summit summary report and our 
international magazine with an article covering the meeting has been 
provided to subcommittee staff for distribution to each Congressional 
member.
    In closing, our organization would like to publicly acknowledge the 
support provided by so many others who devote their resources and 
energy as we do to help young people become the ``best they can be.'' 
Our Association realizes that the only way that we will effectively 
address the many needs and serious challenges facing young people today 
is to unite, working together for this common cause.
    For the sake of our children and youth, I can ensure you that Lions 
Clubs International as the largest service club organization accepts 
the responsibility to maintain a leadership role in our nation's 
efforts towards victory over the ``war on drugs!'' Thank you.

    Mr. Hastert. Thank you, Mr. Patterson.
    Mr. Pease.
    Mr. Pease. Mr. Chairman, the American Legion appreciates 
this opportunity to present testimony on its efforts on the War 
on Drugs. Recent statistics about drug use in America are 
alarming, and the subcommittee's leadership and continued 
oversight will play an important role in resolving this 
tragedy.
    The American Legion has been involved in the War on Drugs 
since its 1924 National Convention. It has always believed that 
cooperative, volunteer efforts at the community level have the 
best chance of both effectiveness and survival.
    A growing tragedy is the prevalence of drug use in 
elementary-school-age children, many of whom come in contact 
with drugs by age 7. Programs which provide prevention 
education, teach responsible decisionmaking, and stress the 
importance of self-reliance, citizenship, leadership, and self-
esteem are seen as viable components to the War on Drugs which 
should be utilized in efforts to decrease teenage drug 
involvement.
    The current programs of the American Legion are designed to 
keep youth active and help instill within them a sense of pride 
in the future of their community, State, and Nation. These 
include American Legion Baseball, the National High School 
Oratorical Contest, Boys State and Boys Nation, scouting, and 
Junior Shooting Sports.
    Last year alone, the American Legion spent $60 million on 
its children and youth programs. Success stories of American 
Legion programs are exemplified by President Clinton's and Rep. 
Ramstad's involvement in Boys Nation. In addition, over 60 
percent of all professional baseball players have participated 
in American Legion Baseball.
    For over 45 years, the American Legion has promoted and 
distributed through our local posts, education and prevention 
literature concerning the national issue of drug abuse. During 
the years of 1970 to 1996, for example, over 3\1/2\ million 
pieces of drug abuse information were distributed to schools 
and other community-based, youth organizations.
    In the last 10 years, the American Legion has made a 
concentrated effort in the education of elementary-school-age 
children. To do this, the American Legion restructured its 
materials to provide a more pictorial format. As a result, 
children are able to relate what they see without having to 
worry about the words they can neither read nor understand. A 
message to parents is presented on the opening panel 
encouraging them to review the information with their children.
    The American Legion's primary approach to the program has 
always stressed prevention through education. The American 
Legion believes that to make any real advances, the Nation must 
curtail the demand. While interdicting the supply is important, 
the supply will only decrease when the demand declines.
    The American Legion continues to urge the President and the 
Congress to fully support, with adequate funding, all border, 
State, Federal, and military drug-trafficking-prevention 
programs, to include the continued use of Reserve and National 
Guard forces. In addition, the American Legion encourages the 
availability of funding for community-based and community-
oriented organizations to continue their efforts in the War on 
Drugs.
    Literature and alternative activities like those offered by 
the American Legion, as well as public service announcements 
with the use of celebrity spokespersons must all be 
instrumental if we are to succeed. These alternative avenues to 
the family cell are necessary because family is no longer the 
deterrent it has been in the past. The family is becoming an 
endangered species, with single-parent homes becoming 
commonplace in many communities.
    The American Legion encourages information dissemination as 
a way to increase the public's awareness of the consequences of 
illicit drug use. This includes the establishment or continued 
maintenance of clearinghouses and information centers, 
development of resource directories, brochures, and the 
advancement of health fairs.
    Education programs should be aimed at increasing life and 
social-skill building, decisionmaking, refusal skills, and 
judgment abilities. These may include family management classes 
and mentoring programs.
    While the American Legion believes that schools should 
concentrate on providing basic learning skills, drug prevention 
and early intervention strategies with an emphasis on family 
involvement should be increased. Most importantly, America's 
youth need viable alternatives like those offered by the 
American Legion.
    In closing, the American Legion would like to reiterate the 
emphasis on the family. The Government, local communities, and 
civic and youth organizations are all important in the War on 
Drugs, but they can never replace a cohesive, family unit.
    The American Legion believes that the Federal Government 
should continue to concentrate on drug trafficking and 
interdiction to provide the necessary resources for civic and 
youth organizations to work with local communities to involve 
America's youth and their families.
    Mr. Chairman, this concludes my testimony.
    [The prepared statement of Mr. Pease follows:]
    [GRAPHIC] [TIFF OMITTED] T0342.024
    
    [GRAPHIC] [TIFF OMITTED] T0342.025
    
    [GRAPHIC] [TIFF OMITTED] T0342.026
    
    [GRAPHIC] [TIFF OMITTED] T0342.027
    
    [GRAPHIC] [TIFF OMITTED] T0342.028
    
    Mr. Hastert. Thank you very much. There are certainly fine 
efforts of the American Legion.
    Mr. Baugher.
    Mr. Baugher. Mr. Chairman, one of the privileges of being 
president is delegation. I have asked Larry Chisholm, our 
executive director, to present the testimony this morning on 
behalf of the National Masonic Foundation.
    Mr. Hastert. Without objection.
    Mr. Chisholm. Thank you, Don. Mr. Chairman, members of the 
subcommittee, we have already submitted for the record our 
rather lengthy statement. I will not try to recite that. Let me 
try to emphasize part of it and expand on one other part of it 
in the few minutes that I have.
    When we began in May 1987, it was already rather late in 
what was then called the ``War on Drugs.'' I do not like the 
simile, but that is what was used. We looked at our limited 
resources and said, ``What part of this can we do?'' We thought 
our assumption was when we began, that we would simply step 
into something that was already ongoing.
    What we quickly found was that while there were a lot of 
people jumping up and down and saying, ``nobody cares, nobody 
cares,'' our perception was that a lot of people cared, but 
nobody knew what the right solution was, what the response to 
this problem was. It was rather surprising. As I say, it was 
already rather late in the game.
    So we looked at it for ourselves, analyzed it for 
ourselves, and what we came up with was there are four elements 
in the solution of the problem of alcohol and other drug abuse 
among children: awareness, treatment, enforcement, and 
prevention. What we also saw rather quickly was that the 
misunderstanding of the right values between these or the right 
mix of these was responsible for the waste of billions of 
dollars with no perceived progress. The danger to this is that 
if the no perceived progress continues, it will lead to 
frustration.
    I think, to a great extent, it already has among the 
public, and the final surrender will get very attractive, and 
we will just go with legalization. Our perception of 
legalization is that most arguments for it distill down to 
reducing the case load of the system and the courts, and 
perhaps there is a less-threatening solution to that problem.
    Let me deal briefly with each of the four elements. We 
talked to a lot of treatment professionals. The treatment 
professionals themselves were telling us that they could not 
keep up with the nature and the scope of this problem. If we 
are to be a humane society, we must offer treatment for those 
who have fallen into the pit of addiction and somehow find the 
will to climb out of it.
    But as one of our former--again, the ancient phrase, ``drug 
czars,'' has said, we do not win a war by treating the wounded; 
and the treatment community themselves were aware of that, even 
with the optimum possible resources that they had received.
    Enforcement can hold back the dam from bursting while we 
solve whatever the problem is. That latter part has to be 
pursued, or enforcement is helpless. We had Ed Heath, who was, 
at the time, head of the Drug Enforcement Administration 
Worldwide Intelligence, as a guest speaker at our annual 
meeting a couple of years ago; and after he spoke very 
eloquently about his view of what was going on around the world 
and the flow of drugs, and it was horrifying--the horror 
stories were very impressive--he ended with saying, please, 
please, please, groups like you and other groups, please pursue 
prevention programs because they cannot catch up to the scope 
of it either unless we reduce use and demand.
    The other two elements, awareness and prevention; awareness 
programs is everything from poster contests to kids to TV 
programs. The biggest problem or danger with awareness is 
believing that it is synonymous with prevention; it is not. It 
is very different, and, again, a lot of money has been wasted 
on this misunderstanding.
    Awareness programs can tell you that a problem exists. It 
can give you some idea of the scope and nature of the problem, 
and most of all, it can keep people aware that something is 
there and that something needs to be done about it. Another 
element must be added if there is to be prevention, and that 
requires direct involvement.
    I think I see generally a movement heading toward that, 
toward more involvement. We have a program called the Masonic 
Model Student Assistance Training. It is a pure prevention 
program, and, in fact, three of our most successful 
jurisdictions are represented here on the subcommittee, your 
own State, Illinois, as you know; and Arizona and Maryland.
    In brief, what the Masonic model does is takes court teams 
from schools, usually five to seven educators. I say educators 
because it will be teachers. It will also be administrator, 
school nurse, guidance counselor. We try to keep it flexible 
enough so if there is any school employee, a janitor or 
cafeteria worker, that has a particular rapport with the 
children, that they be included on the court team; and we have 
had some miracles with this. We had one janitor become chairman 
of the court team to clean up the school in Maryland, as a 
matter of fact.
    We would take about 10 of these teams and put them through 
a training week. There is an awful lot in the training. I will 
not take time for that now. There are two things that make it 
most effective: our heavy emphasis on identification of who are 
the children that are going to use before they start using. It 
is pure prevention. A lot of people do not even know this can 
be done. It can be, and it is surprisingly easy.
    The second part of the emphasis is on once you make the 
identification--and we are talking about children in pain here, 
basically, that is what we are talking about--once you make the 
identification, how do you intervene? What do you do? In many 
cases, of course, the intervention is taking place where the 
addictive cycle may have gone on in the family for generations.
    We now have affected hundreds of thousands of children 
throughout the country already. The jurisdiction where we have 
been the longest, for example, from our beginning, our training 
in the State of Pennsylvania. For the last reporting year, 1994 
to 1995, the last year for which we have figures, 71,637 
children were referred to the court teams. These are children 
that are in trouble, or already headed toward trouble. As of 
the most recent report, 86 percent of those have shown on 
further signs of difficulty.
    We can get fancy by talking about doing this and how we do 
it. Basically, what it is all about is setting up a systematic 
way for caring adults to be in touch with the children. That is 
what we do. Thank you.
    [The prepared statement of Mr. Chisholm follows:]
    [GRAPHIC] [TIFF OMITTED] T0342.029
    
    [GRAPHIC] [TIFF OMITTED] T0342.030
    
    [GRAPHIC] [TIFF OMITTED] T0342.031
    
    [GRAPHIC] [TIFF OMITTED] T0342.032
    
    [GRAPHIC] [TIFF OMITTED] T0342.033
    
    [GRAPHIC] [TIFF OMITTED] T0342.034
    
    [GRAPHIC] [TIFF OMITTED] T0342.035
    
    [GRAPHIC] [TIFF OMITTED] T0342.036
    
    Mr. Hastert. Thank you, Mr. Chisholm.
    The final person to testify today is Dennis Windscheffel, 
and although he does not represent any one volunteer 
organization, he has been very instrumental in coordinating 
many volunteer organizations, up to 60 million, representing 60 
million Americans who belong to those organizations. So we 
appreciate your work and ask for your testimony.
    Mr. Windscheffel. Thank you, Mr. Chairman. I think before I 
begin my testimony, I feel I should give some thanks back both 
to the chairman, especially, and Bobby Charles to your side, 
because we need more Bobby Charleses to make things happen back 
here, especially with the Congress. I appreciate his effort and 
his staff in allowing these great organizations to have the 
opportunity to tell their story.
    Mr. Hastert. You have found out that the staff makes the 
place run. [Laughter.]
    Mr. Windscheffel. I am a member of Lions Clubs 
International, so I should give them credit, but I was also an 
Eagle Scout with the Boy Scouts of America, so I am proud of 
that fact, too.
    As you are aware, I have been asked to give the concluding 
summary testimony at this hearing because of my vast experience 
in not only working with these organizations, but also because 
of my experience in the drug-prevention field over the years.
    This subcommittee has heard today from representatives from 
a cross-section of leading volunteer-based organizations. You 
have learned about valuable, prevention-based, program services 
offered to help young people lead drug-free, responsible, 
caring, and productive life styles. These leading volunteer 
organizations have a long history of addressing many social 
challenges. Through a combined membership of over 50 million 
American adults and youth--again, 50 million American adults 
and youth--approximately 60 percent of the population of the 
United States of America, they do represent the largest, 
combined, volunteer base in this country. They also represent 
the largest, combined movement in drug prevention in the 
country.
    Their commitment to help address problems facing your young 
people has always been a major part of their mission. Over the 
years, I have had the opportunity to help plan numerous 
prevention-based programs designed to positively impact the 
lives of young people.
    I have had the unique opportunity on two occasions to plan 
summit meetings discussing important youth issues, bringing 
together the leadership of several of our Nation's leading 
civic and youth-serving organizations. As I have traveled 
across America, implementing various prevention-based programs, 
I have always emphasized the importance of how these 
outstanding organizations are playing a significant role in the 
battle against drugs.
    My discussion in regard to the value of these organizations 
has included a presentation to various Federal agencies. I have 
seen many Federal initiatives which could have been 
dramatically enhanced if the civic volunteer and youth-serving 
organizations were involved. But unfortunately, too often, many 
of these Federal agencies have been conditioned to focus on 
working with their own grantees and not with outside 
organizations.
    I bring this point up because it has become apparent and 
mentioned over and over again today that the Government alone 
cannot resolve the drug problems and other concerns facing our 
young people. If we are to have a real chance to control the 
problems related to drugs, then there must be a major force to 
help facilitate collaborative actions among various 
nongovernmental stakeholders, along with Federal Government 
programs.
    To have a major impact on controlling drugs, we must focus 
more on strategies that address the process of how we do 
things. We need to address real problems facing our young 
people in a holistic approach, realizing that there is common 
ground to resolve any anti-social behavioral symptoms. With 
limited time and community resources, an effective approach is 
to encourage local communities to form a community, rather to 
form a centralized, prevention-based coalition consisting of 
stakeholder organizations rather than a coalition for each 
behavioral problem addressed.
    To further involve the American public in our drug-
prevention efforts, we need to expand our definition of what 
drug prevention is. Too often it is perceived too narrow and 
very limited for the average citizen to visualize how he or she 
can assist.
    By expanding the parameters of the definition of 
prevention, basic, fundamental principles which we know 
positively impact the lives of young people, citizens can 
better realize that there are important roles that everyone can 
play. Involvement in these roles can do more good if 
accomplished on a national level than ever could be 
accomplished with limited Government funding.
    The organizations here today have the ability within this 
network to carry this message out in communities all across 
America. The uncontrolled usage of drugs as recreational or as 
addictive can seriously impact our country. Most alarming of 
all is that too many young people today do not see the harm and 
are willing to experiment with various types of drugs with 
little or no peer pressure put on them at all.
    The result is an alarming increase in the number of young 
people involved with drugs which has never been experienced at 
this level.
    If this is not bad enough, we are now facing a new crisis: 
a revitalized, drug-legalization movement across this country. 
The rationale for this movement is based on the argument that 
certain drugs now classified as illegal should be allowed 
because of possible medical benefits. Coming from California, I 
have seen first hand how legalization organizers have been able 
to mislead the public, resulting in the approval of Proposition 
215.
    This initiative is so loosely written and if spread across 
the country, this movement could put us back at ground zero in 
our drug control and prevention efforts. If we do not act 
quickly and effectively, uncontrolled involvement in drugs has 
the potential to seriously impact all major national issues. 
This includes seriously impacting our national economy, the 
Federal budget, health care, education, and most importantly, 
the very fiber of the society holding this great country 
together.
    At this time, I would like to present a few strategies very 
quickly, because I see my time is out. Basically, they are some 
of the ideas I have talked to Bobby Charles about, and they 
have to do with some structural changes with ONDCP.
    Mr. Hastert. If you could, could you just submit them in 
writing into the record. We have a series of votes coming.
    Mr. Windscheffel. Oh, OK.
    [The prepared statement of Mr. Windscheffel follows:]
  Prepared Statement of Dennis Windscheffel, Drug Prevention Program 
                               Consultant
    On behalf of the outstanding organizations here today, I wish to 
thank the House Subcommittee on National Security for providing the 
opportunity to testify. This subcommittee has heard from 
representatives from a cross section of leading volunteer-based 
organizations representing major service clubs, fraternal, veteran's 
organizations, a women's and business organization, and from a leading 
youth serving agency. Testimony today has included a brief history of 
the organizations and an overview of the significant roles they play 
related to the war on drugs. You have heard about prevention-based 
program services offered to help young people lead drug-free, 
responsible, caring, and productive lifestyles. Some have shared ideas 
to enhance prevention activities. Included in my summary remarks are 
recommended strategies to improve our nation's overall prevention 
efforts as well as participation by major civic volunteer 
organizations.
    These leading volunteer organizations have a long history of 
addressing many social challenges facing this nation. Through a 
combined membership of over 50 million American adults and youth, these 
organizations collaboratively represent the largest combined organized 
group of volunteers providing resources to communities. There members 
collectively belong to hundreds of thousands of local community 
affiliated chapters serving communities all across this country. Not 
only do members of these organizations provide volunteer service but 
most pay membership dues to belong to their respective organizations. 
Their members meet socially and in service on a regular bases. These 
organizations provide various types of leadership training and provide 
communication networks so every member within their organizations can 
be kept abreast about what is happening.
    Local affiliate chapters raise funds through various types of 
activities which are put directly back dollar for dollar into the 
communities addressing needs. There is no overhead and no profit taken. 
Their organized structures at both the top and local community levels 
play a big part for there long time existence and significant 
accomplishments. Their commitments to help address problems facing our 
young people has always been a major part of their missions.
    I am here today because of a personal decision I made approximately 
15 years ago. It was one of the most important and rewarding decisions 
of my life. In 1982, I was serving as the club president of the local 
Lions Club serving the community where I resided and had a business. 
During my year as club president our organization made a long-term 
commitment to emphasis the importance of our association and local 
clubs do what they can to address drug related problems. This 
commitment was made by Lions Clubs International because of the 
seriousness of the problem not only facing our nation but also because 
of the dangerous and real threat it presented to countries all around 
the world. During my year as club president, I was able to have my club 
sponsor prevention educational program materials I designed for young 
children to be placed in a few elementary schools. As this program grew 
other service clubs and fraternal organizations helped sponsor these 
materials. This joint sponsorship allowed all elementary schools in the 
entire school district to present educational materials to help 
children understand the importance of non-drug involvement.
    As my personal desire grew to do what I could in the crusade 
against drugs, I made the decision to leave the business world and 
dedicate both my professional services as well as much of my volunteer 
time in this most important endeavor. Since that time, I have had the 
opportunity to help plan numerous prevention-based strategies, 
programs, and other services designed to positively impact the lives of 
young people. I have designed and administered several prevention-based 
federally funded programs. These programs have been funded by the U.S. 
Department of Education, Center for Substance Abuse Prevention, Drug 
Enforcement Administration, ACTION, and by the Corporation for National 
Service. I have had the unique opportunity on two occasions to plan 
summit meetings, bringing together the leadership of several of our 
nation's leading civic and youth serving volunteer-based organizations. 
One of the main purposes of these summit meetings was to focus around 
drug prevention issues related to young people. In planning this most 
important hearing today, I was given the opportunity to assist staff in 
the recruitment of organizations which have testified.
    As I have traveled across America implementing various prevention-
based programs for young people, I have always emphasized the 
importance of how many leading civic and youth serving volunteer 
organizations are playing a significant role in the battle against 
drugs. Because of my personal knowledge of their abilities and desires, 
I also have stressed that there is much more that these great 
organizations can and would do to help address concerns facing our 
young people, if only there was a more organized structure to 
facilitate such action.
    My discussions in regards to the value of the civic and youth 
serving volunteer organizations over the years has included 
presentations to various federal agencies with drug prevention 
responsibilities. I have seen many federal initiatives which could have 
been dramatically enhanced if the civic volunteer and youth serving 
organizations were involved. But unfortunately, too often many of these 
federal agencies have been conditioned to focus on working with their 
own grantees and not with outside organizations. I have even heard the 
excuse that building such a partnership is not in their Congressional 
mandate. It has been very frustrating to understand why there has been 
little effort to attract the involvement of our volunteer civic 
organizations when they have so much to offer.
    I bring this point up because it has become apparent that the 
government alone cannot resolve the drug problem and other concerns 
facing our young people. Even with all the grant programs funded across 
this nation over the years, there will not be a national triumph unless 
cost-effective resources within communities are more effectively 
utilized. If we are to have a real chance to control the drug problem 
then there must be a major effort to help facilitate collaborative 
actions among various key non-governmental stakeholders along with 
federal government programs.
    Since 1985 large sums of federal funds have become available for 
grant programs to address the drug problems. In most cases these funds 
have not been evenly distributed across this country with the exception 
of drug-free school state block grant funds which are distributed to 
requesting school districts. Many geographic areas have been able to 
successfully receive several grants while other areas around the 
country have received little or nothing. I which I could say that the 
funds that Congress provides always goes to the most needed 
communities, but often those community areas with the best success are 
politically correct or have the best grant writers.
    To have a major impact to control drugs we must focus more on 
strategies that address the process of how we do things. We must employ 
many more approaches providing prevention opportunities for every 
community across this country. This includes an awareness campaign at 
the national level which stimulates the involvement of the American 
public in our prevention efforts. We need to address real problems 
facing our young people in a holistic approach, realizing that there is 
common ground to resolve many antisocial behavioral symptoms including 
gang, violence, crime activity, teenage pregnancy, dropping out of 
school, etc. With limited time and community resources, a more 
effective approach is to encourage our local communities across the 
country to form a centralized prevention-based coalition consisting of 
stakeholder organizations rather than a coalition for each behavioral 
problem addressed.
    To further involve the American public in our drug prevention 
efforts we need to expand our definition of what prevention is. Too 
often it is perceived to narrow and very limited for the average 
citizen to visualize how he or she can assist. Too many Americans see 
our prevention efforts as highly specialized and something which only 
law enforcement officers or other professionals in the field can 
provide. By placing the word drug before prevention we make it sound as 
if it has to be treated differently than other prevention efforts for 
young people at risk. Involvement in drugs needs to be thought as a 
symptom or outcome of real problems facing our young people.
    By expanding the perimeters of the definition of prevention to 
basics, citizens across this country can better realize that there are 
important roles that everyone can play. We need to emphasize to a 
greater degree the importance of good parenting, having the family 
attend church services, supporting positive youth activities in the 
communities, provide service opportunities for young people, and we can 
go on and on with sound fundamental principles which we know make a 
real difference in the lives of young people. Involvement in these 
roles can do more good if accomplished on a national level than ever 
could be accomplished with limited governmental funding. The 
organizations here today have the ability and tremendous network to 
carry this message out and to make these activities happen in 
communities all across America!
    I wish at this time to share a few other personal observations 
based on my years of experiences as it relates to our nation's efforts 
to address the drug problem, especially as it relates to helping our 
young people. First of all, I want to make it perfectly clear to the 
members of this subcommittee and to the panel representatives here 
today, that the problems related to illegal drugs (including alcohol 
for youth) has been and still are the greatest threat facing our 
country and world today. This statement is even more magnified if we 
confined the problems to our young people.
    I know that there is much discussion now in Congress and in the 
White House on balancing the budget, protecting social security, 
welfare reform, and the cost of Medicare. Not resolving these issues 
can have a dramatic impact on the future of this country down the road, 
and workable bipartisan solutions must be found. With the same vigor as 
these issues we must as a nation unite to seriously address our most 
present danger to our country and most importantly to our young people, 
our future!
    The uncontrolled usage of drugs as either recreational or as 
additive can seriously impact our country and world in many ways. The 
relationship between drugs and crime is significant with our prisons 
overcrowded with criminals with some type of drug involvement. Gang 
activity related to drugs is a concern facing many communities today 
resulting in citizens and young people living in fear. Emergency rooms 
in hospitals are often bombarded with overdosing cases related to 
drugs. And most alarming of all, too many young people today do not see 
the harm and are willing to experiment with various types of drugs with 
little or no peer pressure put on them. The result is an alarming 
increase in the number of young people involved in drugs which has 
never been experienced at this level.
    If this is not bad enough, we now face a new crisis, a revitalized 
drug legalization movement across this country. The rationale for this 
movement is based on the argument that certain drugs now classified as 
illegal should be allowed because of possible ``medical'' benefits. 
Coming from California, I have seen first hand how legalization 
organizers have been able to mislead the public resulting in the 
approval of Proposition 215. This initiative is so loosely written that 
if spread across the country this movement could put us back to ground 
zero in our drug control and prevention efforts. Drug legalization 
activists have been able to successfully with a minimum of dollars 
compared to the billions of dollars provided over the years to address 
the drug problem, create a national debate on the value of certain 
illicit drugs and our present drug control policies.
    I know that Director Barry McCaffrey from the Office of National 
Drug Control Policy (ONDCP) is a very dedicated and capable individual 
who is a personally commitment to defeat this current legalization 
movement. This subcommittee though needs to understand that no one man 
or agency can do everything that is needed to effectively control and 
diffuse what should be a real and alarming concern facing this nation. 
Both the propositions in California and Arizona prevailed because the 
winning side was organized and the losing side was not prepared. With 
the present movement of many more states now considering similar 
initiatives, we must now view this as a national threat which needs to 
be addressed by all three federal branches of government. If we do not 
act quickly and effectively, uncontrolled involvement in drugs has the 
potential to serious impact all major national issues being addressed 
by this Congress and the White House. This includes seriously impacting 
our national economy, federal budget, health care, education, and most 
important the very moral fiber of our society holding this great 
country together.
    As I try to assess where we are as a nation in our prevention 
efforts, I am reminded of a old television commercial showing a 
mechanic holding up a new oil filter and saying ``Come in and see me 
now to have this inexpensive filter put in your car, or it will be very 
costly when I see you later to repair your engine.'' I wish that I 
could say that we had time to still change the filter as it relates to 
our drug crisis, but it is too late! We now need to do some major 
repairs by the best mechanics available to effectively address drug 
related problems facing this nation. We may even need to change some of 
the parts or even consider a major overall of the system!
    Before I present some workable strategy ideas, my mission here 
today is not to put any blame on who is responsible for any past or 
lack of past actions. Even though we can learn by mistakes made in the 
past and need to take them into consideration, the important thing here 
today is to discuss what to do now and in the future. I will emphasis 
strategies that will utilize the resources of our nation's great civic 
volunteer and youth serving organizations to be pivotal in our nation's 
prevention efforts.
    To develop sound prevention-based strategies there needs to be 
effective action plans to make sure they become realities. Strategies 
need to be based on concrete premises. Five important premises to base 
an aggressive and effective drug prevention movement in this country 
include:
    1) The drug crisis is real and is one of the greatest threats now 
facing our nation and world today. We are now facing the battle of our 
lives and the immediate future of this country. There is a crisis and 
the American public must be told the truth and become aware of the 
seriousness of the problem. We cannot avoid the problem, we cannot put 
it under the rug, we must educate our citizens and aggressively combat 
the problem with no further delays.
    2) Communities who can develop active collaborative prevention 
movements within stand the best chance of effectively addressing 
concerns related to drugs as well as other social concerns. The role of 
federal government can best be served by providing seed funding for 
promising programs to help facilitate communities and organizations in 
initial prevention efforts but should not be there for developing long 
term dependent relationships. Communities organizations should be 
thanking the federal government for funds provided to start program 
services rather than complaining about more funds for continuing the 
programs.
    3) To combat any aggressive drug legalization movement, the best 
defense are aggressive offensive tactics. Although challenges must be 
presented in opposition to the strengths of the legalization movements, 
major stress should be placed on approaches attacking the weakness of 
the legalization movements (i.e. in responding to Proposition 215 more 
emphasis needs to be placed on addressing such real concerns as no age 
limits for provided medical use, no control factors put in place for 
distribution of drugs to be used, no specific limitations as to what 
medical problems justify usage, mix messages given to young people, and 
reminder to public that marijuana has been proven to be harmful to the 
body and is one of the most common gateway drugs leading to the use of 
even more destructive drugs). Too much emphasis is now being placed on 
medical doctors debating with other medical doctors. It appears if we 
are falling into a trap set by the other side putting us in a no-win 
situation.
    4) Studies have shown that one of the best forms of prevention for 
young people is to provide opportunities in service to others. This can 
help young people socially bond with school, community and family, 
developing a real sense of self-worth and responsibility.
    5) Promising prevention programs must be sustained on an ongoing 
bases by local communities to keep drug related problems under control. 
Efforts should be directed by a prevention-based coalition consisting 
of representatives from key stakeholders.
    At this time, I will present a few strategies for federal 
government consideration designed to enhance and improve current 
approaches and prevention-based participation, as well as counter the 
present drug legalization movement. Strategies presented take into 
consideration one or more of the five premises mentioned above.
                           recommendation one
    The Office of National Drug Control Policy (ONDCP) under the 
leadership of the Director should establish a management level task 
force consisting of well qualified non-federal governmental experts 
representing each of critical identified stakeholder areas (i.e. law 
enforcement, education, entertainment field, religious institutions, 
community coalitions, civic and youth serving volunteer organizations). 
Selected individuals should represent outstanding prevention leaders in 
their field, highly respected by their peers, and capable of securing 
vast non-governmental resources contributed at the local community 
levels by stakeholders they represent. The organization of this 
management team could bring together leaders in each of their 
respective fields to plan and put into place the most effective action 
plan to carry out proposed strategies. Joint meetings could take place, 
allowing task force members to coordinate collaborative initiatives 
between the various stakeholder areas as well as with involved federal 
agencies.
    The time it would take for any Director of ONDCP, no matter who he 
or she is, to learn all that is needed is time we now cannot afford. 
The current system provides for ONDCP staff (although qualified in some 
areas) who may not be in the best position to most effectively move 
entire key stakeholders at a national level. I am fully aware that 
experts in various fields provide advisement to ONDCP staff, but what 
is recommended is not the same. There is a big difference in the 
approaches! Advisors advice and that is the extend of their services. 
What is recommended here provides for experts who are in a better 
position to actually produce results and be accountable for what is 
achieved. These dedicated individuals do not just sit in Washington, 
D.C. but would travel around the country putting forces together in a 
common effort to achieve objectives related to the five goals presently 
outlined in our national drug control strategy. Instead of relying on 
just advice we are utilizing experts in each of the critical fields to 
facilitate the greatest impact. Funds needed to form this management 
team of experts can be taken from the $60 million provided by Congress 
to ONDCP to enhance the performance level of the agency.
                           recommendation two
    An united national campaign must be conducted immediately by each 
of the identified stakeholder areas under the direction of ONDCP. This 
campaign needs to alert communities all across America of the 
seriousness of the drug problems (including current drug legalization 
movement), and about promising strategies and programs to implement to 
combat the problems. Leaders of Congress and the President of the 
United States should address the American public specifically in 
regards to the drug issue. There needs to be a strong message sent 
across this country that we now face a crisis.
                          recommendation three
    To help spread resources evenly across the country, tax incentive 
legislation should be put into law that help stimulate prevention 
efforts in communities. Tax incentives could include tax credits or 
deductions for contributions provided for prevention programs impacting 
young people. In addition, deductions should be considered for 
businesses and corporations sponsoring employees and management into 
civic volunteer organizations. Donations to civic volunteer 
organizations for prevention efforts should be allowed for tax 
deduction purposes. Offsets for these incentives can be based on 
earning your tax relief rather than just providing tax cuts giving tax 
breaks across the board. Restrictions could be placed on qualifying for 
tax incentives at the state level (i.e. such as need to in compliance 
with federal drug laws), and at the community level (i.e. such as need 
to have certified community-based prevention coalition in place).
                          recommendation four
    Federal funding for drug related programs (including state block 
grant funds) should be allocated to only states and organizations 
within these states in full accordance of federal drug related laws. 
Any state not in accordance (i.e. California and Arizona) may have up 
to 18 months to be in accordance to federal drug related laws. This 
includes laws pertaining to FDA requirements dealing with approved 
drugs for medical purposes. An example of this type of legislation may 
be compared to legislation providing federal funds for highway 
improvement. Legislation should be considered immediately and attached 
to the 1997 drug bill so states get the message before upcoming public 
votes on proposed ``drug use for medical purpose'' initiatives.
    To protect our young people, its time for the White House and 
Congress to work together to get tough and to send a strong message. 
The proposed legislation will send a much stronger message then federal 
action taken so far. It would help attract more citizens and voters 
involved in our defense than by threatening to take the licenses away 
from doctors for prescribing illegal drugs for patients. School 
districts (including parents of students), state and county agencies, 
concerned civic organizations and other significant groups will join 
the cause to defeat any type of state laws that could jeopardize future 
federal governmental funding for programs combating drug related 
concerns.
                          recommendation five
    A forum should be sponsored by ONDCP or other designated federal 
agency whereby key representatives from leading civic and youth serving 
volunteer organizations can jointly meet either annually or biannually. 
At this forum selected federal agencies (i.e. ONDCP, U.S. Department of 
Education, Center for Substance Abuse Prevention, DEA, Corporation for 
National Service) could present current promising research findings in 
area of prevention. Governmental prevention initiatives could be 
presented which can be enhanced by involvement of civic and youth 
serving organizations. Action plans can be discussed at these forums. 
This could also provides opportunity for leaders of Congress and 
Administration to address key representatives of major civic and youth 
serving organizations in a single setting. Follow-up communication 
needs to be established (i.e. computer networking) so civic and youth 
serving organizations are aware of most current promising strategies 
and programs available to share with local affiliated chapters across 
this country. ONDCP should in cooperation with other agencies put 
together a series of video programs covering various drug prevention 
issues with master tapes provided to headquarters of civic and youth 
serving volunteer organizations for distributed to local affiliates for 
viewing.
                           recommendation six
    Emphasis should be given on providing federal grants to provide 
``seed'' funds to help initiate program services at the community 
level. Special development grants should be provided to major youth 
serving organizations. These organizations have the capacity to develop 
promising prevention program services that can be duplicated and 
distributed with non-governmental sponsorship funds to a vast number of 
affiliated chapters nationally.
    In reference to the proposed Drug-Free Communities Act of 1997, 
special funding consideration should be given to the 100 cities (many 
representing the largest cities across this country) participating in 
the upcoming April Presidents' Summit for America's Future. The 
formation of a community-based prevention coalition could be easily 
incorporated in what selected teams of leaders from these invited 
cities will be charged to do as an outcome of the summit meeting. An 
in-service workshop about the Drug-Free Communities Act should be 
presented at the summit meeting covering the requirements for grants, 
as well as effective steps in the formation of a prevention-based 
coalition addressing youth concerns (including drug prevention 
efforts). Why not build upon a national movement with vast resources 
all ready being invested for the best effective results.
    I will now present recommendations and some examples related to 
actions which can be taken by our nation's leading civic and youth 
serving volunteer organizations to help make a significant difference 
in controlling our nation's drug problems. These recommendations 
include:
    1) Providing their vast communication channels (i.e. magazines, 
newsletters, web pages, conventions, forums) to carry important 
awareness messages out to millions of members and families across the 
country. These messages should include presentations by their own 
international or national leaders, the President of the United States, 
leaders of Congress, the Director of ONDCP, and other national figures.
    2) Distribution of prepared video programs explaining and 
illustrating national drug control strategy plan, counter activities 
for drug legalization movement, and importance of immediate involvement 
to help young people lead drug-free and responsible lifestyles. Video 
programs to be provided to local chapters across the country for 
viewing by members at chapter meetings and by other citizens at civic 
organization sponsored events.
    3) Sponsorship of national, state, and community prevention service 
recognition awards, honoring organizations and individuals providing 
outstanding service to help young people stay drug-free. This includes 
the sponsorship of a national youth award promoted by major youth 
serving organizations across the country.
    An example of a partnership with the federal government in this 
area is the recent commitment by several of the leading civic volunteer 
organizations to sponsor national service scholars. Sponsoring civic 
volunteer organization chapters will put up a minimum of $500 to honor 
outstanding high school students providing service to their community. 
This scholarship will be matched by $500 provided by the Corporation 
for National Service. I predict that in just two years a significant 
number of local chapters of our leading civic volunteer organizations 
will make it possible for every high school in the country to honor a 
national service scholar.
    4) Organization headquarters to serve as clearinghouse for local 
chapters advising of most promising programs to invest time and funds 
resulting in significant results. Encouragement given by leaders to 
start or belong to local prevention-based coalitions in communities 
served.
    5) Support of selection representative(s) to attend annual or 
biannual ONDCP meeting, and as available panel member(s) for 
presentations at invited events (i.e. CADCA, PRIDE conferences, 
Congressional hearings).
    6) Sponsorship and involvement of summit meetings bringing together 
respective leadership for planning of collaborative efforts related to 
youth issues of concern.
    7) Major emphasis placed on sponsoring positive activities for 
young people, junior service clubs (i.e. Key, Leo Clubs), and joint-
community service projects with youth. With the vast number of local 
chapters, civic and youth serving volunteer organizations are in an 
ideal position in collaboration with school districts to provide or 
sponsor a variety service opportunities for high schools students in 
the community who could be given credits towards their graduation.
    8) Developing new promising prevention-based programs and services 
based on current research findings. These programs and services to be 
made available to local affiliated chapters to share with local 
communities. In addition, at the international or national levels open 
communication (i.e. computer networking) should be established so 
organizations can share information to local chapters and to one 
another at national or international levels.
    What has been recommended today can potentially stimulate and 
impact millions of people not only in this country but in many other 
countries as well. Just think what could be accomplished if this type 
of movement available through our civic volunteer organizations can 
also be generated by several of the other key stakeholder areas as 
well. It is possible to achieve this goal if we were more organized at 
the federal government level as recommended.
    As you are aware, since the conception of the ONDCP there has been 
a series of reports published outlining the national drug control 
strategy. Federal agencies are given direction as to roles they should 
play to carry out these strategies. In these reports there is mention 
about the importance of the involvement of various non-governmental 
organizations to take an active role to help local communities in the 
battle against drugs. Yes, there is even mention of the general role of 
the civic volunteer organizations. With all this great planning why do 
we still find ourselves in the predicament we now face as it relates to 
drug control issues?
    I know that our current ONDCP Director, General Barry McCaffrey, 
has stated on several occasions that we have dropped the ball! The key 
word in his statement is we. With the word we comes responsibility. 
During this decade an event happened in another part of the world which 
brought together the historical formation of powerful forces to combat 
the invasion of one country into another, the invasion of the very 
small country of Kuwait by Iraq. Why did this happen? The stakes were 
high including possible control of a significant portion of the world's 
oil supply. One after another, nations joined the efforts of the United 
States to form one of the largest and most powerful coalitions every 
formed in modern times. How were we so successful to defeat the enemy? 
We gathered the forces around the world, brought in the best military 
leaders to plan the attack, and utilized their services to take shift 
action to carry out the plan. We utilized are best air attack forces 
and weapons to reduce enemy resistance for our ground forces. We then 
had our ground forces marched into Kuwait with the best military 
equipment available to drive the enemy forces out with minimum losses.
    There was another important factor though which dramatically helped 
our forces triumph to victory in this Middle East crisis. This factor 
often overlooked was one of the most powerful in the results obtained. 
Our military forces left this country with the understanding that the 
American public was fully supportive of what they were doing. It was 
right and just!
    With the success we experienced from this historical event, what 
lessons could be learned from Operation Dessert Storm to help us with 
what we are now facing as it relates to the drug crisis? First of all, 
we must as a nation understand that there is an ongoing invasion on our 
own soil. Utilizing illegal drugs as the weapons, the enemy is 
spreading across the country. The enemy ground troops have arrived in 
two of our states (California and Arizona) and are marching to advance 
to many other states. Unlike, Dessert Storm, the allies and the enemy 
are in most cases ourselves making it much more difficult to recognize 
and defeat. The longer we take to react the more we allow the enemy to 
set dig deep trenches. How important are the stakes this time? Is the 
deterioration of the future of our young people and this country high 
enough? I believe so, and so do the millions of Americans represented 
by these most important civic and youth serving volunteer organizations 
here today.
    To succeed, the we which General McCaffrey talks about must include 
all involved. We triumphed in Dessert Storm because we all supported 
the effort, it was right and just. We now need to do what has not been 
accomplished so far in our nation's efforts to rid the vast destruction 
caused by illegal drugs. Bring the best leaders together to plan and 
lead the various stakeholder forces that we have in this country to 
help rid our nation of deadly and destructive drugs. We must unite the 
American public in this cause so when our Drug Enforcement Agents, and 
police officers put their lives on the line to combat the supply and 
use of drugs they know that they have the support and commitment of the 
citizens they serve. This same level of citizen support needs to be 
given to all those in the community who dedicate their volunteer and 
professional time in the trenches trying their best to help turn the 
drug crisis around. We must now put everything on the table, select the 
best approaches, and most importantly take shift and effective action. 
This includes bold and courageous steps against the present and future 
drug legalization movements. We must do this so those now in the 
prevention and treatment fields to help our young people do not feel 
deserted.
    I and the organizations represented here today have not come here 
to testify because we feel that we cannot overcome the drug crisis. In 
fact, we are here because we believe that this country has the forces 
to soundly put our drug problems under control. I know that there are 
millions of Americans represented here today that are willing to help. 
They come with their hands out not asking for federal funds but to 
grasp your hands in partnership to save our young people and this 
country from destruction. The most important role that our government 
can play in the ``war on drugs'' may not be the ability to provide 
funding for a limited number of programs. It will be to help facilitate 
a real, meaningful and powerful national movement stimulating the 
involvement of the American public in communities all across this 
country. We must work together to employ strategies so that the we can 
be expanded to allow every citizen the opportunity to provide their 
support and commitment.
    I know that the 105th Congress will pass legislation on very 
important issues impacting our country. The most important 
accomplishment that this Congress can achieved is to bring about the 
necessary changes and direction in our nation's efforts to help our 
youth in their quest to become drug-free, caring and responsible 
citizens. No greater challenge and responsibility do we all have for 
the sake of this nation and the future of this world.
    It has been a honor to be here among representatives from several 
of our great volunteer organizations who serve this country so well. It 
is also been a privilege to testify to the Congressional members of 
this subcommittee who I know have a deep concern and conviction about 
the future of our young people. I know that you have been enlighten as 
I have been and share the vision how our outstanding volunteer-based 
organizations serving our nation are and can be even more essential and 
powerful partners in mutual efforts to help young people face serious 
challenges. The roles that that the leading civic volunteer 
organizations can play in our nation's prevention efforts are 
paramount! They have the combined vast forces with over 50 million 
members, hundreds of thousands of local chapters and millions of 
dollars of resources raised at the local community levels to set the 
example for others. This includes supporting community-based prevention 
coalitions, sustaining prevention activities, defeating drug 
legalization movements, and to help lead the country to victory over 
the ``war on drugs.''
    As previously mentioned, fifteen years ago, I had the support of 
local chapters of many of the civic organizations here today. With the 
support of their local chapters we made a difference in my community. I 
now sit before you with the support of international or national 
leaders of many of these same organizations fully capable of making a 
significant difference helping young people avoid drugs in communities 
all across America.
    I leave you with the thought that we must all come to the 
realization that it is time to move forward, making necessary 
modifications to improve our approaches, and employ measures which can 
move this country in unity, setting a course of action to do what is 
right and just. If we are really serious about making a significant 
impact to help our young people lead a drug-free lifestyle and to 
become the ``best they can be,'' we must act now! I will close with a 
profound statement I will never forget in reference to the war on drugs 
given by a most respected U.S. Senator, Alan Simpson, from Wyoming. He 
stated, ``We need to do whatever it takes, and if we don't all we have 
to lose is our country.'' Thank you.

    Mr. Hastert. I am going to have to leave here and break 
shortly. Because of that, I want to thank everybody, and 
especially you, Mr. Windscheffel, in doing the coordination. 
But each one of you brings a very valuable contribution to 
this--I call it a war; some people choose not to call it a war, 
but this effort to bring our youth involved in this in a first-
hand way, so that they can actually be enabled to help others 
to have a sense of worth, to be part of this process of 
becoming an American and not falling on the wayside with the 
problems that are out there, drugs being the No. 1 thing.
    I would ask that we leave the record open, if we could, 
because of our constraint of time, and we have a series of 
votes coming up here, that we could submit several questions to 
you and that you would respond to those questions. We would 
like to have all your information, the strategies included.
    I would like to tell you one other thing. The Speaker 
called me this morning and wanted to be able to come and 
testify for a couple of minutes. You know that you have got his 
attention. He knows how important it is for our grassroots 
organizations, those people that are there involved with people 
day in and day out, those organizations are going out and 
reaching out to our kids, our children, how important they are. 
Because of his constraints, he could not be here, but you have 
his attention.
    I would also like to ask that all of you from time to time 
come back and testify and be a part of the strategy of working 
together.
    So I appreciate everybody being here today, especially the 
great testimony of the witnesses that you have brought forth, 
and we certainly have had a very exceptional hearing. With 
that, I am going to say that this hearing of the Subcommittee 
on National Security, International Affairs, and Criminal 
Justice is adjourned. Thank you very much.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
